APPENDIX

APPENDIX
TABLE OF CONTENTS
Opinion in the United States Court of Appeals for the Fifth Circuit
(November 13, 2020)........................................................................................ App. 1
Final Decision and Order of the Administrative Review Board, U.S.
Department of Labor
(May 22, 2019) ............................................................................................... App. 15
Decision and Order on Remand of the Office of Administrative Law Judges,
U.S. Department of Labor
(November 15, 2018)...................................................................................... App. 20
Decision and Order of Remand of the Administrative Review Board, U.S.
Department of Labor
(January 12, 2018)......................................................................................... App. 50
Decision and Order Dismissing Complaint of the Office of Administrative Law
Judges, U.S. Department of Labor
(May 19, 2016) ............................................................................................... App. 62
On Petition for Rehearing En Banc Order in the United States Court of
Appeals for the Fifth Circuit
(January 22, 2021)......................................................................................... App. 85

i

Case: 19-60561

Document: 00515638489

Page: 1

Date Filed: 11/13/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-60561
Summary Calendar

FILED

November 13, 2020
Lyle W. Cayce
Clerk

FREDERICK B. WRIGHT,
Petitioner,
v.
ADMINISTRATIVE REVIEW BOARD, UNITED STATES DEPARTMENT
OF LABOR,
Respondent.

On Petition for Review of a Final Decision and Order
of the United States Department of Labor’s Administrative Review Board
Before OWEN, Chief Judge, and SOUTHWICK and WILLETT, Circuit Judges.
PER CURIAM:*
Frederick Wright sued his former employer, the Railroad Commission of
Texas (RRC), alleging that his employment was terminated in retaliation for
engaging in protected activity under the Federal Water Pollution Control Act1
(FWPCA) and the Safe Drinking Water Act2 (SDWA). After a hearing and an

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

1
2

33 U.S.C. § 1367.
42 U.S.C. § 300j-9(i).

App. 1

Case: 19-60561

Document: 00515638489

Page: 2

Date Filed: 11/13/2020

No. 19-60561
initial rejection of those claims that was vacated on appeal, an administrative
law judge (ALJ) at the Department of Labor again rejected Wright’s claims,
and the Administrative Review Board (ARB) upheld that rejection. We affirm.
I
The RRC is responsible for regulating the oil and gas industry in Texas.3
Part of the RRC’s responsibility includes overseeing underground injection
programs under the SDWA.4 The RRC is also the state agency that certifies
federal permits under the FWPCA.5
In October 2007, the RRC hired Wright as an engineer specialist who
handled field operations in the oil and gas sector.6 Wright’s job included
“conducting surveys, making inspections, investigating complaints, and
collecting and analyzing engineering data.”7 Wright’s primary duty was to
work with oil and gas operators to ensure compliance with state and federal
rules, statutes, and regulations.8
During Wright’s tenure with the RRC, there were numerous complaints
about Wright’s behavior from colleagues and from oil and gas operators.9
Wright received several employee evaluations and participated in counselling
sessions urging him to improve his behavior,10 but he did not do so.11 In one
instance, a witness said that an operator asked Wright how he could bring
several wells into compliance with state and federal rules.12 Wright laughed

EN.250.
EN.250.
5 EN.250.
6 EN.250; CX-52.
7 EN.250.
8 EN.743.
9 EN.250-55.
10 EN.250-55.
11 EN.250-55.
12 EN.250-55.
3
4

2
App. 2

Case: 19-60561

Document: 00515638489

Page: 3

Date Filed: 11/13/2020

No. 19-60561
at the operator and threatened to cite the operator for further violations.13 In
another instance, a witness testified that operators complained that Wright
had engaged in name-calling, including calling an operator “stupid.”14
Colleagues complained that Wright was arrogant, rude, and insulting.15
Wright frequently ignored his manager’s instructions.16 For instance,
near the end of his employment with the RRC, Wright’s manager had approved
a new form for operators to complete in conducting compliance reviews.17 An
operator submitted this new form to the RRC, but Wright requested that the
operator complete the old form.18 Wright made this request despite the fact
that his manager had told him that a phone call about the missing information
from the already-completed form would suffice.19

When this operator

complained to Wright’s manager, the manager reiterated his request for
Wright simply to ask for the new information by phone.20 Wright continued to
disagree with his manager over the use of the new form. This disagreement
led to disciplinary recommendations, which resulted in the termination of
Wright’s employment with the RRC.21
According to Wright, the RRC retaliated against him for trying to enforce
federal laws protecting safe drinking water.22 During his employment, Wright
had submitted a complaint for a hostile work environment, alleging that his
managers and colleagues did not understand the state and federal rules they

EN.260, 270, 785.
EN.157, 258.
15 RX-14, 17; Tr. 338-40, 465-66, 469-70, 476-77.
16 EN.250-55.
17 EN.254-55.
18 EN.255.
19 EN.255.
20 Dep’t of Labor’s Br. at 14.
21 EN.254-56.
22 See Wright’s Br. at 18-19.
13
14

3
App. 3

Case: 19-60561

Document: 00515638489

Page: 4

Date Filed: 11/13/2020

No. 19-60561
were charged with enforcing and often disregarded them.23 Wright also argued
for the use of the old compliance review form, contending that it would improve
enforcement of federal and state laws and would better inform the public about
wells.24
After Wright’s employment with the RRC was terminated, Wright asked
the Occupational Safety and Health Administration (OSHA) to investigate
whether his termination was because he had engaged in protected activity
under the SDWA and FWPCA.25 OSHA concluded that “it had no cause to
believe” that the RRC had violated either the SDWA or FWPCA by retaliating
against Wright for protected activity.26 Wright appealed OSHA’s decision to
an ALJ at the Department of Labor.27 The ALJ concluded that Wright had not
engaged in protected activity.28 Wright appealed to the ARB, which vacated
the ALJ’s decision, ordered that one of Wright’s exhibits be admitted into
evidence, clarified the law regarding protected activity, and remanded the
decision to the ALJ for further proceedings.29 The ALJ again rejected Wright’s
claims, concluding in part that any protected activity he engaged in was not a
motivating factor for his termination from the RRC’s employment.30 The ARB
affirmed the ALJ’s decision.31 This appeal followed.
II
Wright’s first argument on appeal is that the ALJ abused his discretion
by not admitting several of Wright’s exhibits which, he argues, would have
“presented evidence that the negative comments in [the RRC’s employee

EN.576-80; CX 56-60; Dep’t of Labor’s Br. at 19-20.
See Wright’s Br. at 18-19.
25 EN.121.
26 EN.121.
27 EN.121.
28 EN.142.
29 EN.183, 376.
30 EN.376.
31 EN.379.
23
24

4
App. 4

Case: 19-60561

Document: 00515638489

Page: 5

Date Filed: 11/13/2020

No. 19-60561
performance evaluation] were retaliation for protected activity.”32
generally review evidentiary rulings for abuse of discretion.33

We
In an

evidentiary ruling, an abuse of discretion occurs “only where the challenged
ruling affects a substantial right of a party.”34
Wright’s contention that the ALJ abused his discretion in not admitting
several exhibits is unavailing. Wright fails to show how any of the rejected
exhibits, if admitted, might have “had a substantial influence on the outcome
of the” proceedings and thus affected a substantial right of his.35 Several of
the rejected exhibits would have been cumulative as they were identical to
other admitted exhibits.36 Other exhibits, although not identical, would have
also been cumulative because of their similarity to testimony from the hearing.
For instance, several of the rejected exhibits are requests for admission from
state court,37 which are remarkably similar to testimony at the ALJ’s
hearing.38 Still other exhibits, such as email correspondence about the Texas
Legislature’s renumbering of all engineering specialist jobs at the RRC, are not
relevant to whether Wright’s supervisors retaliated against him for engaging
in protected activity under the SDWA, FWPCA, and related regulations.39
Therefore, Wright has failed to show that the ALJ abused his discretion in
denying these exhibits.

Wright’s Br. at 38.
See Gen. Elec. Co. v. Joiner, 522 U.S. 136, 141 (1997).
34 Jones v. Benefit Trust Life Ins. Co., 800 F.2d 1397, 1400 (5th Cir. 1983) (first citing
Muzyka v. Remington Arms Co., 774 F.2d 1309, 1313 (5th Cir. 1985); and then citing Jon-T
Chems., Inc. v. Freeport Chem. Co., 704 F.2d 1412, 1417 (5th Cir. 1983)); see also FED. R.
EVID. 103(a).
35 See United States v. Limones, 8 F.3d 1004, 1008 (5th Cir. 1993).
36 See, e.g., Wright’s Br. at 36 (“Judge Kennington rejected this exhibit as irrelevant
despite the fact that he admitted this exact same exhibit as one of Respondent’s exhibits.”).
37 See Wright’s Br. at 38-39.
38 Compare EN.457 (discussing a 10-day delay) with EN.395 (discussing the same 10day delay).
39 See CX-224-25.
32
33

5
App. 5

Case: 19-60561

Document: 00515638489

Page: 6

Date Filed: 11/13/2020

No. 19-60561
Wright similarly contends that the ALJ abused his discretion by not
allowing him to “elicit testimony about the [e]xhibit that the ALJ was required
to admit . . . on remand” from the ARB.40 But Wright has likewise failed to
show how this “had a substantial influence on the outcome of the” proceedings
and thus affected a substantial right of his.41 He simply makes conclusory
statements that not allowing him to elicit testimony on this exhibit was
prejudicial.42 Wright has failed to show the ALJ abused his discretion in not
allowing him to elicit testimony on this exhibit.
III
Wright’s second argument on appeal is that the ALJ’s decision relied on
inadmissible hearsay evidence.43 Specifically, Wright contends that witnesses’
testimony recounting complaints from former colleagues and oil and gas well
operators is inadmissible hearsay.44

Wright’s argument is unpersuasive.

Hearsay is defined as “an out-of-court statement offered to prove the truth of
the matter asserted.”45 Generally, “a statement is not hearsay if it is offered
to prove the statement’s effect on the listener.”46
Here, the witnesses did not offer their statements to prove the truth of
the complaints from former colleagues and oil and gas well operators. Rather,
the witnesses’ provided these to statements show why they believed Wright
was acting unprofessionally and why they recommended that the RRC
terminate Wright’s employment.47 For instance, one witness testified that he

Wright’s Br. at 15, 32 (internal citations omitted).
See Limones, 8 F.3d at 1008.
42 Wright’s Br. at 15, 32.
43 Wright’s Br. at 30-31, 37.
44 Wright’s Reply Br. at 17-18; EN.286-87.
45 United States v. Piper, 912 F.3d 847, 855 (5th Cir. 2019), cert. denied, 139 S. Ct.
1639 (2019) (citing United States v. Reed, 908 F.3d 102, 119 (5th Cir. 2018)); see also FED. R.
EVID. 801(c).
46 Reed, 908 F.3d at 120 (citations omitted).
47 See, e.g., EN.851-53; see also EN.250-60.
40
41

6
App. 6

Case: 19-60561

Document: 00515638489

Page: 7

Date Filed: 11/13/2020

No. 19-60561
“recommend[ed] that Mr. Wright be terminated for unprofessional behavior”
and, when asked for the basis of that recommendation, testified about specific
complaints he received about Wright that led him to make that
recommendation.48

The statements that Wright claims were inadmissible

hearsay were not offered to prove the truth of their content but were offered
for their effect on the listener, and are not hearsay.49
IV
Wright’s third argument on appeal is that the ALJ’s conclusions lack
substantial evidence.50 Wright contends that substantial evidence does not
support the ALJ’s conclusions that (1) Wright did not engage in protected
activity meant to safeguard drinking water in accordance with SDWA,
FWPCA, and relevant regulations, and (2) even if he did, the RRC terminated
Wright’s employment for reasons rather than in retaliation for engaging in
protected activity.51
We first examine whether substantial evidence supports the ALJ’s
conclusion that the RRC terminated Wright’s employment for reasons other
than retaliation.52 The substantial evidence standard requires that a “decision
must be upheld if, considering all the evidence, a reasonable person could have
reached the same conclusion.”53 Substantial evidence requires “more than a
mere scintilla but less than a preponderance.”54

EN.851-54.
Reed, 908 F.3d at 120 (citations omitted) (“Ordinarily, a statement is not hearsay if
it is offered to prove the statement’s effect on the listener.”); see also White v. Fox, 470 F.
App’x 214, 222 (5th Cir. 2012).
50 Wright’s Br. at 31, 37.
51 Wright’s Br. at 31, 37.
52 See Ameristar Airways, Inc. v. ARB, Dep’t of Labor, 771 F.3d 268, 272 (5th Cir. 2014)
(“An agency’s conclusions of law are reviewed de novo and its findings of fact are reviewed
for substantial evidence.” (citing Willy v. Admin. Rev. Bd., 423 F.3d 483, 490 (5th Cir.2005))).
53 Id. (quoting Williams v. Admin. Rev. Bd., 376 F.3d 471, 476 (5th Cir. 2004).
54 Id. (internal quotations omitted) (quoting Williams, 376 F.3d at 476).
48
49

7
App. 7

Case: 19-60561

Document: 00515638489

Page: 8

Date Filed: 11/13/2020

No. 19-60561
We conclude that the ALJ’s decision is supported by substantial
evidence. In his opinion, the ALJ points to the numerous instances of Wright’s
“interpersonal conflicts with other employees [and] operators” as well as his
disregard for directions from his managers.55

The ALJ cited several

employment evaluations occurring over a span of years that document Wright’s
need to “strive for better relations” with colleagues and operators,56 how
difficult Wright was to work with,57 and a continued failure on Wright’s part
to improve his behavior.58 Witnesses testified about the numerous complaints
against Wright by his colleagues and by operators, including “multiple
incidents where [he] clashed with operators and behaved in a rude and
threatening manner.”59

One witness recalled seeing Wright laugh at an

operator and threaten additional violations when asking for his help,60 and
another witness said that Wright had engaged in name-calling, such as calling
people “stupid” and “liars.”61 Another witness testified that Wright ignored the
instructions of his manager, requesting an operator to complete outdated forms
after Wright’s manager had explicitly told Wright that the old form did not
need to be completed and that a phone call about the missing information from
the already-completed form would suffice, as discussed above.62 Witnesses also
testified that operators found Wright so difficult to work with that they would
actively avoid having to speak with him.63
The main evidence that would support a conclusion that Wright was
terminated for engaging in protected activity is that some acts Wright alleges

EN.269-72.
EN.271-72.
57 EN.272.
58 EN.272.
59 EN.272.
60 EN.260, 270, 785.
61 EN.157, 258.
62 EN.258.
63 EN.260.
55
56

8
App. 8

Case: 19-60561

Document: 00515638489

Page: 9

Date Filed: 11/13/2020

No. 19-60561
were protected happened in relatively close proximity to his termination.64 The
ALJ declined to make the inference that this close temporal proximity was
enough given the significant evidence that the RRC terminated Wright’s
employment solely because of behavioral issues.65 The evidence of behavioral
issues, together with other documents and testimony from several witnesses
about similar behavioral issues, sufficiently supports the ALJ’s finding that
Wright’s employment with the RRC was terminated for behavioral issues and
not because he engaged in protected activity.
Since we conclude that the ALJ’s finding that Wright’s employment was
terminated for behavioral issues is supported by substantial evidence, we need
not examine whether the ALJ’s finding that Wright did not engage in protected
activity is supported by substantial evidence.

Either would have been

sufficient to reject Wright’s claims.
V
Wright’s fourth argument on appeal is that the ALJ improperly rejected
his motion for recusal, and Wright was therefore deprived of the right to have
his case heard by an impartial arbiter.66 “We review a denial of a motion to
recuse for abuse of discretion.”67 An ALJ has abused his discretion when “a
reasonable man, cognizant of the relevant circumstances surrounding [the]
judge’s failure to recuse, would harbor legitimate doubts about that judge's
impartiality.”68 Although the Department of Labor contends that Wright failed
to exhaust his administrative remedies regarding his motion for recusal by not

EN.269-70.
EN.269.
66 Wright’s Br. at 33-37.
67 Brown v. Oil States Skagit Smatco, 664 F.3d 71, 80 (5th Cir. 2011) (citing Andrade
v. Chojnacki, 338 F.3d 448, 454 (5th Cir.2003)).
68 Id. (alteration in original) (citing Andrade, 338 F.3d at 454).
64
65

9
App. 9

Case: 19-60561

Document: 00515638489

Page: 10

Date Filed: 11/13/2020

No. 19-60561
raising them with the ARB,69 the record shows that Wright did raise them
before the ARB.70
In his brief to this court, Wright references eleven reasons why the ALJ
should have recused himself and why the ALJ could not be impartial.71
Wright’s first argument is that there were technical issues with the record the
ALJ forwarded to the ARB.72

But there is no allegation that the ALJ

intentionally removed the missing documents from the record forwarded to the
ARB. Even Wright himself says the ALJ might have “unconsciously” created
the technical errors in the record.73

The issue was also corrected before the

ARB.74 Unintentional, technical errors do not represent prejudicial bias that
would warrant recusal.75
Wright’s second argument is that the ALJ should be recused because he
requested the opposing party submit a response to Wright’s motion for
recusal.76 But simply requesting a response to a motion to recuse does not
represent bias in the judge.77
Wright’s third argument is that the ALJ rejected Wright’s attempt to
admit an exhibit that was already admitted by the opposing party. 78 But the
rejection of a duplicate exhibit is not indicative of bias because rejecting

Department of Labor’s Br. at 38-42.
EN.244, 303; Wright’s Reply Br. at 9-10.
71 Wright’s Br. at 33-37.
72 Wright’s Br. at 34-35.
73 Wright’s Br. at 35.
74 Dep’t of Labor’s Br. at 42-43.
75 See Liteky v. United States, 510 U.S. 540, 556 (1994) (noting that “routine trial
administration efforts” are not a basis for prejudicial bias); see also United States v. O'Keefe,
169 F.3d 281, 287 n.5 (5th Cir. 1999).
76 Wright’s Br. at 34.
77 See Liteky, 510 U.S. at 556 (noting that “routine trial administration efforts” are not
a basis for prejudicial bias).
78 Wright’s Br. at 36.
69
70

10
App. 10

Case: 19-60561

Document: 00515638489

Page: 11

Date Filed: 11/13/2020

No. 19-60561
duplicative exhibits is a prerogative of a judge to prevent confusion as well as
the wasting of time and resources.79
Wright’s fourth argument is that the ALJ admitted alleged hearsay
during the hearing on Wright’s case.80 But this argument is not persuasive.
As we concluded, Wright has not pointed to any actual hearsay that was
admitted in the proceeding before the ALJ. Furthermore, even if the ALJ did
admit hearsay and Wright did timely object to it, Wright has failed to show
how the ALJ’s evidentiary rulings are evidence of bias since “judicial rulings
alone almost never constitute a valid basis for a bias or partiality motion.” 81
Wright’s fifth argument is that the ALJ was “reluctan[t] to go into the
required detail” in the case because he only held a three-day hearing rather
than a two-week hearing and because the ALJ said, in an off-hand remark,
that he had no intention of becoming a petroleum engineer through the
proceedings.82 Insisting upon haste in judicial proceedings is generally not
indicative of prejudicial bias.83

Additionally, “judicial remarks during the

course of a trial that are critical or disapproving of, or even hostile to, counsel,
the parties, or their cases, ordinarily do not support a bias or partiality
challenge.”84
Wright’s sixth argument is that the ALJ did not make it clear when he
admitted a certain exhibit.85 Unless a judge is intentionally trying to frustrate
a party’s case, not making clear when a certain exhibit has been admitted is

See FED. R. EVID. 403.
Wright’s Br. at 37-38.
81 Liteky, 510 U.S. at 555 (1994) (citing United States v. Grinnell Corp., 384 U.S. 563,
583 (1966)).
82 Wright’s Br. at 35-36.
83 See Nicodemus v. Chrysler Corp., 596 F.2d 152, 156 (6th Cir. 1979).
84 Liteky, 510 U.S. at 555; see also Andrade v. Chojnacki, 338 F.3d 448, 462 (5th Cir.
2003) (“‘[E]xpressions of impatience, dissatisfaction, annoyance and even anger’ do not
establish bias or partiality.” (quoting Liteky, 510 U.S. at 555-56)).
85 EN.199-201.
79
80

11
App. 11

Case: 19-60561

Document: 00515638489

Page: 12

Date Filed: 11/13/2020

No. 19-60561
not indicative of prejudicial bias. If Wright was uncertain whether the ALJ
had admitted a certain exhibit, he should have asked the ALJ.
Wright’s seventh argument for why the ALJ should have recused himself
is that the ALJ did not compel the RRC to allow Wright access to a personnel
file of a former colleague.86 Wright does not explain how this reflects the ALJ
was biased.87 The mere act of denying a specific discovery request, without
more, can almost never show that an ALJ was prejudicially biased.88
Wright’s eighth argument is that the ALJ allegedly made factual
conclusions unsupported by the evidence.89 As we concluded, the ALJ’s factual
conclusions that were necessary to dispose of the case were supported by
substantial evidence. But even if other conclusions made by the ALJ were not,
that does not automatically render the ALJ unfairly biased against Wright,
otherwise every mistaken conclusion would be evidence of bias.90
Wright’s ninth argument is that the ALJ unfairly denied Wright a
hearing on his FWPCA claims by limiting the only hearing solely to
consideration of Wright’s SWDA claims.91 Wright contends this is evidenced
by the Notice of Hearing and Pre-Hearing Order issued by the ALJ.92 However,
the notice and order does not contain such a limitation.93 Moreover, Wright
concedes that the ALJ referenced the FWPCA in his opinion, reflecting that
the ALJ was considering Wright’s FWPCA claims in the context of the hearing,

EN.212-13.
EN.212-13.
88 See Liteky, 510 U.S. at 555 (“[J]udicial rulings alone almost never constitute a valid
basis for a bias or partiality motion.” (citing United States v. Grinnell Corp., 384 U.S. 563,
583 (1966))).
89 EN.209-10.
90 See Liteky v. United States, 510 U.S. at 555 (1994) (“[J]udicial rulings alone almost
never constitute a valid basis for a bias or partiality motion.” (citing Grinnell Corp., 384 U.S.
at 583)).
91 EN.200-01.
92 EN.200.
93 EN.003-005.
86
87

12
App. 12

Case: 19-60561

Document: 00515638489

Page: 13

Date Filed: 11/13/2020

No. 19-60561
and that the ARB discussed Wright’s FWPCA claims in some detail in its
opinion.94 Wright has failed to show that the ALJ did not allow him to present
his FWPCA claim.
Wright’s tenth argument is that the ALJ allegedly allowed Wright to
admit evidence only for actions after 2010 while allowing the RRC to admit
evidence from before 2010.95 But Wright has failed to demonstrate that this
actually occurred.

In the portion of the transcript Wright cites, the ALJ

inquired about situations that caused a hostile work environment within the
30 days prior to Wright’s complaint.96 The transcript does not show that the
ALJ barred Wright from introducing evidence from prior to 2010.97
Wright’s eleventh argument is that the ALJ refused to admit several of
Wright’s exhibits.98 Rulings on the admission of exhibits generally does not
constitute prejudicial bias without some showing that the judge was acting
antagonistically towards the party whose exhibit was rejected.99
Even considering all of Wright’s arguments together, Wright has failed
to show that the ALJ exhibited prejudicial bias against Wright. The ALJ did
not abuse his discretion in rejecting Wright’s motion for recusal.
VI
Lastly, Wright contends that this court must determine which of several
differing transcripts is the correct version in order to resolve this appeal.100 We

EN.201.
EN.208-09; see also EN.438-43.
96 EN.438-43.
97 EN.438-43.
98 Wright’s Br. at 32.
99 See Liteky v. United States, 510 U.S. 540, 555 (1994) (“[J]udicial rulings alone almost
never constitute a valid basis for a bias or partiality motion.” (citing United States v. Grinnell
Corp., 384 U.S. 563, 583 (1966))).
100 Wright’s Br. at 16, 40 (“[I]t appears that a ruling on which Transcript, is the correct
Transcript, is warranted.”).
94
95

13
App. 13

Case: 19-60561

Document: 00515638489

Page: 14

Date Filed: 11/13/2020

No. 19-60561
disagree. Wright does not allege which part of the transcript is not in the
record before us.101 Wright was not unfairly prejudiced by the existence of
several different transcripts of his hearing before the ALJ, and thus we do not
need to resolve which iteration of the transcript was the official version to
resolve this appeal.
*

*

*

For the foregoing reasons, the judgment of the Administrative Review
Board is AFFIRMED.

101

See generally Wright’s Br.

14
App. 14

Case: 19-60561
Document:
00515284595
Page: 140
Case: 19-60561
RESTRICTED
Document:
00515299842
Page: Date
140 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561
Document: 00515284595 Page: 140 Date Filed: 01/24/2020
U.S. Department of Labor
Administrative Review Board
200 Constitution Avenue, N.W.
Washington, D C. 20210

In the Matter of:
FREDERICK B. WRIGHT,
COMPLAINANT,

ARB CASE NO.

2019-0011

ALJ CASE NO.

2015-SDW-00001

DATE:

v.

RAILROAD COMMISSION
OF TEXAS,

MAY 2 2 2019

RESPONDENT.
Appearances:

For the Complainant:
Frederick B. Wright; prose; Houston, Texas

For the Respondent:
Michael J. DePonte, Esq., and Julie C. Tower, Esq.; Jackson Lewis,
P .C.; Austin, Texas
Before: William T. Barto, Chief Administrative Appeals Judge, James A.
Haynes and Daniel T. Gresh, Administrative Appeals Judges

FINAL DECISION AND ORDER
The Complainant, Frederick Wright, filed a retaliation
complaint under the employee protection provi ion of the Safe Drinking Water Act
(SDWA), the Feder al Water Pollution Co ntr ol Act (FWPCA), a nd their
implementin g regulation . 1 He alleged that the Railroad Co rn mis ion of Texa , his
employer a nd th e Respondent, violated the SDWA and FWPCA whistleblower
PER CURIAM.

protection provisi on s whe n it re t a liated a nd discrimina te d agains t him b ecau e h e

42 U.S.C. § 300j-9(i) (1994); 33 U.S.C. § 1367 (1972); 29 C.F.R. Par t 24 (2018).
17.3
App. 15

Case: 19-60561
Document:
00515284595
Page: 141
Case: 19-60561
RESTRICTED
Document:
00515299842
Page: Date
141 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595
2

Page: 141

Date Filed: 01/24/2020

raised concerns about requiring oil and gas operators to comply with rules
regulating drilling wells to protect sources of underground drinking water.
Following a hearing, a Department of Labor (DOL) Administrative Law
Judge (ALJ) dismissed Wright's complaint because he found that Wright did not
meet his burden of showing that any protected activity motivated the termination of
his employment. After Complainant appealed the ALJ's decision to the
Administrative Review Board (ARB or Board), the Board vacated the ALJ's
conclusion that Complainant had not engaged in protected activity and remanded
for further consideration for the ALJ to assess whether Complainant had a
reasonable belief that he was furthering the purpose of the Acts when he engaged in
activities he alleges were protected. 2
On remand, the ALJ reconsidered whether Complainant engaged in protected
activity and found that "Complainant did not have a reasonable belief that he was
raising environmental or public health and safety concerns governed by or in
furtherance of either SDWA or FWPCA'' when he engaged in his alleged protected
activities. Decision and Order on Remand (D. & 0 .) at 26·27.3 Further, the ALJ
found that even if Complainant did engage in protected activity, he "failed to
establish by a preponderance of the evidence that such activity was a motiving
factor in his termination." Id. at 27. Finally, the ALJ found that Respondent proved
by a preponderance of the evidence that it would have taken the same action
against Complainant absent his alleged protected activity. Id. We affirm the ALJ's
2

2018).

Wright u. R.R. Comm 'n of Tex., ARB No. 16-068, ALJ No. 2015-SDW-001 (Jan. 12,

While it is evident that the ALJ undertook the analysis the Board directed on
remand, the ALJ did not specifically indicate in his D. & 0. on remand whether
Complainant lacked a subjective belief that he was raising environmental concerns in his
complaints, his complaints were not objectively reasonable, or both. See Newell v. Airgas,
Inc., ARB No. 16-007, ALJ No . 2015-STA·006, slip op. at 10 (ARB Jan. 10, 2018) (noting a
complainant must demonstrate thats/he had a reasonable belief that the conduct
complained of violated the pertinent act or regulations, which requires both a subjective
belief and an objective belief); Tomlinson v. EG&G Defense Materials, ARB Nos. 11-024, 11027, ALJ No. 2009·CAA-008, slip op. at 13 (ARB Jan. 31, 2013). And notwithstanding the
ALJ's assertion that the Board originally remanded this case for reconsideration under an
"expansive definition of protected activity," see D. & 0. at 3, the Board had merely set forth
the definition of protected activity as it exists in law and regulation and directed the ALJ to
reconsider that element on remand pursuant to that definition. Nevertheless, in light of our
affirmance of the ALJ's finding that Complainant failed to establish causation, any
shortcomings in the findings and conclusions made by the ALJ in this regard are harmless.
a

17.3
App. 16

Case: 19-60561
Document:
00515284595
Page: 142
Case: 19-60561
RESTRICTED
Document:
00515299842
Page: Date
142 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595
3

Page: 142

Date Filed: 01/24/2020

dismissal of Complainant's complaint because substantial evidence supports the
ALJ's finding that Complainant failed to prove by a preponderance of the evidence
that any protected activity was a motivating factor in Respondent's decision to take
adverse action against him.

JURISDICTION AND STANDARD OF REVIEW

The Secretary of Labor has delegated to the Administrative Review Board
authority to review ALJ decisions in cases arising under the SDWA and FWPCA
and issue final agency decisions in these matters. 4 The Board will affirm the ALJ's
factual findings if supported by substantial evidence.5 The Board reviews an AL.J's
conclusions of law de novo.6

DISCUSSION

To prevail on a whistleblower complaint under the Acts, a complainant must
establish by a preponderance of the evidence "that the protected activity caused or
was a motivating factor in the adverse action alleged in the complaint." 7 If a
complainant makes this showing, "relief may not be ordered if the respondent
demonstrates by a preponderance of the evidence that it would have taken the same
adverse action in the absence of the protected activity."8

Secretary's Order No. 1-2019 (Delegation of Authority and Assignment of
Responsibility to the Administrative Review Board), 84 Fed. Reg. 13072 (Apr. 3, 2019).
4

29 C.F.R. § 24.llO(b). And, as the United States Supreme Court has recently
observed, "the threshold for such evidentiary sufficiency is not high," amounting to "more
than a mere scintilla," and requiring only "such relevant evidence as a reasonable mind
might accept as adequate to support a conclusion." Biestek u. Berryhill, U.S. , 139 S. Ct.
1148, 1155 (2019).
5

6
Wolslagel u. City of Kingman, Ariz., ARB No. 11-079, ALJ No. 2009-SDW-007, slip
op. at 2 (ARB Apr. 10, 2013) (citations omitted).
7

29 C.F.R. § 24.109(b)(2).

8

Id.

17.3
App. 17

Case: 19-60561
Document:
00515284595
Page: 143
Case: 19-60561
RESTRICTED
Document:
00515299842
Page: Date
143 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595
4

Page: 143

Date Filed: 01/24/2020

The findings of fact are set forth in the ALJ's D. & 0. at pages 4 to 10. The
ALJ's further findings and conclusions regarding motivating factor causation are
set forth at D. & 0. at 23-25.
The ALJ reviewed the evidence of record and noted that Complainant had a
documented history of interpersonal conflicts with both staff and operators. D. & 0.
at 24. Specifically, he found that Complainant had demonstrated an "unwillingness
to work with operators ... ", "behavioral problems," "inappropriate conduct," an
"inability to work with [a] Respondent employee," "unprofessional conduct,"
"uncooperative conduct in dealing with operators and colleagues," and that he was
"arrogant, insulting, and insolent" in working with other people. Id. Similarly, the
ALJ found that Respondent fired Complainant because "he refused to follow
instructions and created a state of confusion which was indicative of his refusal to
work with operators and to make the application process more difficult than
necessary." Id. at 25. Substantial evidence in the record supports these findings of
fact and the ultimate finding as to Respondent's motivation; therefore, we affirm
the ALJ's findings.
Wright objects to the ALJ's finding that Complainant was disciplined because
he failed to make reasonable efforts "to call" a consultant to inform her about the
correct number of centralizers needed for a project, asserting that he was never
specifically told to telephone the consultant. We reject this assertion because
substantial evidence supports the ALJ's finding that Respondent expected
Complainant to let the operator/consultant know in some manner what was needed
for approval and Respondent believed that he had failed to do so. 9 Specifically,
Charles Teague emailed other members of Respondent's management team that
Complainant "placed on the operator the unnecessary task of filling out another
form and failed to detail what specific information is needed for approval." RX 25 at
1. Respondent expected Complainant to let the operator know what was required by
sending either a fax or email, making a call, etc., in some manner so that she could
get approval for her project. IO
We note that it is the role of neither the ALJ nor the Board to act as a super-personnel
"department that reexamines an entity's business decisions." Jones v. U.S. Enrichment Corp.,
ARB Nos. 02-093, 03-010, ALJ No. 2001-ERA-021, slip op. at 17 (ARB Apr. 30, 2004) (citations
omitted).
9

Complainant also asserts the ALJ erred in rejecting certain exhibits Complainant
proffered and in admitting certain others that Respondent proffered. In regard to the
various exhibits at issue, we reject Complainant's allegations of error and conclude that the
ALJ did not abuse his discretion with respect to any of his evidentiary determinations. See
10

17.3

App. 18

Case: 19-60561
Document:
00515284595
Page: 144
Case: 19-60561
RESTRICTED
Document:
00515299842
Page: Date
144 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595
5

Page: 144

Date Filed: 01/24/2020

CONCLUSION

Accordingly, we AFFIRM the ALJ's finding that Complainant failed to prove
that protected activity caused or was a motivating factor in the adverse action
alleged in the complaint, an essential element of his case. Therefore, this complaint
is DENIED.

SO ORDERED.

Wright, ARB No. 16-068, slip op. at 10 n.49 (stating that an "ALJ's evidentiary rulings are
reviewed under an abuse of discretion standard") (citing Shactrnan u. Helicopters, Inc., ARB
No. 11-049, ALJ No. 2010-AIR-004, slip op. at 3 (ARB Jan. 25, 2013)).

17.3

App. 19

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 109
Page: Date
109 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

U.S. Department of Labor

Page: 109

Date Filed: 01/24/2020

Office of Administrative Law Judges
5100 Village Walk, Suite 200
Covington, LA 70433

(985) 809-5173
(985) 893-7351 (Fax)

Issue Date: 15 November 2018

CASE NO.: 2015-SDW-l

In the Matter of: .
FREDERICK B. WRIGHT
Complainant
v.

RAILROAD COMMMJSSION OF TEXAS
Respondent
APPEARANCES:

FREDERICK B. WRIGHT,pro se
Complainant
MICHAEL J. DEPONTE, ESQ .
.JULIE C. TOWER, ESQ.
On Behalf of the Respondent
BEFORE:

CLEMENT J. KENNINGTON
Administrative Law Judge
DECISION AND ORDER ON REMAND .

This proceeding arises under the employee protective provisions of the Safe Drinking
Water Act (SDWA), 42 U.S.C. § 300}-9(i), and the Federal Water Pollution Control Act
(FWPCA), 33 U.S.C. 1367, and the regulations thereunder at 29 C.F.R. Part 24 brought by
Frederick Wright (Complainant) against the Railroad Commission of Texas (Respondent).

I. PROCEDURAL BACKGROUND
On July 19, 2013, Complainant filed this complaint based upon bis assertion that
Respondent terminated him on June 20, 2013 due to his prot~cted activities under these statutes
when he raised concerns about requiring oil and gas operators to comply with rules regulating

12.789

App. 20

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 110
Page: Date
110 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

12.78

App. 21

Page: 110

Date Filed: 01/24/2020

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 111
Page: Date
111 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

12.78

App. 22

Page: 111

Date Filed: 01/24/2020

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 112
Page: Date
112 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 112

Date Filed: 01/24/2020

IV. STATEMENT OF THE CASE

A. Factual Background3
Respondent is a Texas state agency responsible for the regulation of the oil and gas
industry in the state of Texas, including administration and enforcement of the underground
injection control program under the federal Safe Drinking Water Act for class 2 injection wells
associated with oil and gas exploration and production activities as well as brine mining
activities. Respondent also serves as the certifying agency for federal permits under the Federal
Water Pollution Control Act (FWPC), for projects associated with oil and gas exploration and
production activities. (Tr. 211 -213; 40 CFR §147.2201).
Respond~nt's former District 3 Director, Guy Grossman, hired Complainant on October
1, 2007, as ~ engineer specialist Il for its·Houston District 3 Office, Field Operations Section,
Oil and Gas Division. (CX-52; STF-1, 3). Prior to bis employment with Respondent,
Complainant worked as a petroleum engineer for the U.S. Bureau of Land Management, as a car
sales manager, and as a project engineer for Gulf Oil, Union Texas Petroleum, and Exxon. (CX196-201). As an engineer for Respondent, Wright's duties included conducting sw;veys, making
inspections, investigating complaints, and collecting and analyzing engineering data (RX-1).
Complainant was assigned as a technical staff person to work with the regulated industry to
secure compliance by oil and gas operators with the rules and statutes assigned to Respondent for
enforcement. (RX-31; Tr. 93-95).
Regarding the alternate surface casing program which was the primary'activi1y involved
in tbis proceeding, Wright had two responsibilities: (1) to insure that the operator was going to
circulate cement to the surface and (2) to determine the number of centralizers to be used in tbis
process. (Tr. 219-220, 230, 231-233).
As of June 20, 2013, Wright had received two promotions to .engineer VI with his last
bonus effective December I , 2012. (RX-2; 27, STF-2). Respondent terminated Wright on June
20, 2013, at which·time he was under the supervision of District Director Charles Teague and
assistant director Peter Fisher, who both.reported to Deputy Director Raymond Femandez.4

3

The factual background consists of not only the parties' stipulations but also the undersigned's factual
determination of the record consisting of admitted exhibits and credibility determinations. In general, I
was not impressed with Complainant's denial of his. mistreatment of operators and refusal to work with
staff personnel. Management was very lenient with Complainant and tried to encourage him to work
with, as opposed to working against, independent contractors and fellow employees.
4

Raymond Fernandez retired from Respondent on August 31, 2014. Prior to hi.s retirement, Fernandez
served as Respondent's Deputy Director of Field Operations for its Oil and Gas Division for three years.
In that position, he managed nine district offices, including Houston's District 3 Office. As Deputy

Director, he had overall supervision for 250 employees. Before his promotion to Deputy Director, he

held a numerous other positions with Respondent. As a professional petroleum engineer, he worked ,vith
oil and gas operators in dealing with and resolving regulatory issues. (Tr. 812-92).

\J

12.754
-4App. 23

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 113
Page: Date
113 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 113

Date Filed: 01/24/2020

At bis fast employee evaluation (EPE) on April 29, 2008, supervisor Gil Bujano,
Director of Respondent's Oil and Gas Division, and Guy Grossman rated Wright as meeting the
requirements of his position. (RX-3). On his next two evaluations on October 2-1, 2008, and
October 28, 2009, Wright received similar evaluations. (RX-4-5).
At the next evaluation (EPE) oh October 28, 2010, Wright maintained an overall rating of
meeting the requirements of bis position on average but was told that he needed to improve his
relations with personnel in the office and industry who hesitated- to approach him because they
perceived Complainant was unwilling to work out amenable solutions at times. (RX-6). In reply,
Wright stated:
I am taking this comments option to file a complaint that the
District Director and the Assistant District Director are using their
official cap·acities to harass me, with the intent to create a hostile
work environment and adversely impact my employment
opportunities. The baseless comments in this EPE about my lack
of professionalism, me engaging in debates with operators, as well
as the implication that unbiased individuals are hesitant to
approach me, is part of the manifestation ofthis harassment.
(RX-6, p. 7).
~

In response, Guy Grossman and Raymond Fernandez stated there was no attempt to
harass or create a hostile work environment for Wright Rather, they were suggesting ways
Wright could -improve his performance for the betterment of Respondent On appeal, HR
Director Mark Bogan reviewed Wright's h,arassment allegations and denied any evidence of
harassment. He also indicated that Houston's District Office management comments were
suggestions for work improvement. (RX-7- 8).

In support of its evaluation of Wright, Respondent produced an e-mail from Douglas
Storey of Fidelity Exploration & Production sent to Grossman dated June 15, 2010, in which
Storey complained of Wright's arrogant opinion of him.self According to Storey, Wright acted
as though he was the only individual who knew anything about engineering or regulatory issues
and accused Storey of not properly calculating the correct number of centralizers. Complainant
also demanded Storey write a letter of apology indicative of a lack of professionalism. (RX-17).
Storey also sent another e-mail dated April 16, 2013 indicating other instances of Wright
arbitrarilyholdingup completion reports. (RX- 19).
On bis next employee evaluation (EPE) on October 28, 2011, Wright received an overall
average evaluation with suggestions of taking more field trips and working for better relations
with all operators to make "every effort to assist operators in keeping wells on production but
also complying with the rules and regulations" and viewing violations from practical standpoint
"in addition to the straight rules and regulations." (RX-9).
On the next employee evaluation (EPE) of November· 14, 2012, Respondent evaluated
Wright as average but still needing to improvement relati<?ns with operators with the goal of

12.756
-5-

App. 24

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 114
Page: Date
114 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 114

Date Filed: 01/24/2020

providing excellent customer service and making the path to compliance qutck and
uncomplicated while working on better relations with staff as well. (R.X-16). In support of its
suggested improvements, Respondent cited instances of Wright requiring analyst Marsha Vogel
to report string depths on a completion package when she had never been required to do so in 20
years of regulatory reporting. (RX-13). Wright denied causing any delays in processing
completion reports and informed Fernandez his processing of completion reports
" .. .significantly exceeds the rest of the District." (CX-31).

..__J

On September 6, 2012, "1,Vright filed a complaint with Gil Bujano, Director of
Respondent's Oil and Gas Division, concerning the temporary assignment ofTe1ry Papak to nm
the District 3 office in the absence of Teague and Fisher. Wright claimed former District Director
Ron Smelley initiated this practice of appointing Papak, who was only specialist IV, as opposed
to Complainant, ·who was a specialist VI, in order to demean him. According to Wright,· he
contacted Mark 'Bogan about this appointment and was· advised it was only a temporary
appointmerit and that he should not be concerned about it. Wright disregarded Bogan's advice
and when Fisher later made a similar appointment, Wright again filed an informal complaint
with Bujano. (CX-32).
Rather than working with operators to resolve compliance problems, Wright continued to
play "hard ball" with operators by refusing to help them resolve problems. For example, operator
Paul Hendershott met with Wright in an attempt to resolve potential drilling problems. Rather
than helping Hendershott, Wright laughed and told him that he could come up with more
violations. Fellow employee Mark Motal overheard the exchange and apologized for
Complainant's conduct, after which Hendershott stated he had never been so humiliated, talked
down to, and made fun of in his entire life. The following day, Hendershott spoke with District
Director Charlie Teague~ who resolved Hendershott's problems and answered his questions.
(RX-12).
Besides the Hendershott incident, Respondent produced an e-mail from fellow employee
Michael Sims to Charlie Teague dated March 21, 2013, wherein W1ight, rather than helping
Sims resolve an issue of the bmial of oil based mud, continued to argue with Sims, which
resulted in Sims having to seek assistance from Wright's supervisor, Charlie Teague, and Peter
Fisher, Deputy District Director, because Wright refused to listen to anything Sims had to say.
(RX-14).
.. ,
As a further example of Wright's unwillingness to work with operators and a lack of
professionalism, Respondent provided an e-mail from Carla Martin of Enervest to Fernandez
dated April 12, 2013, wherein she reported submitting a new form approved by Teague for use in
a SWR 13(b)(2) request (alternative surface casing exemption request) for Strake #lH well in
Grimes County only to be told by Wright that she had to use an old form to get her request
approved. In addition, she complained that Wright had a problem working with women and
cited her experience of being intemipted by Wright when she called to explain the purpose of her
call. (RX-18). ,
Wright's refusal to work with operators was exemplified by his dealing with Douglas
Storey of Fidelity Exploration & Production Co. which was also set forth in an e-mail dated

12.757
-6 -

App. 25

,\....../

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 115
Page: Date
115 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 115

Date Filed: 01/24/2020

April 16, 2013. The email states that Wright rejected Storey's revisions of a completion package
tracking no. 71248 without letting Respondent's proration and enginee1ing personnel detennine
-whether they were going to give Storey the necessary allowance. Upon receiving Wright's
response, Storey e-mailed Fernandez indicating that everything he submitted to Wright was
rejected even for things Stqrey was admittedly correct on. Further, Storey told Femar1dez that if
necessary he c01tld provide three years of issues with Wright (RX-19).

B. Events Leading to Complainant's Discharge

In support of his hostile work complaint mentioned above, Wright stated District Director

Teague and Assistant Director Fisher possessed only a rudimentary understanding of the rules,
regulations, and engineering principles associated with a Director's office. Complainant alleged
both had ignored operator compli?1,Ilce.withTules such tl~at i+ew hires to the t~chnical staff had no
opportunity to develop understanding, of the issues. He also alleged that Teague brought in
several clerical staff members to train other clerical staff in Region 3 which resulted in the
improper processing of completion reports as seen in the plugging back of a well without setting
an effective isolating plug in May 2012.
On July 24, 2012, Wright stated Teague approved several reports of down hole
production comingling without a SWR IO exception. In addition, on September 3, 2012, Teague
received a call from an operator who reported that cement was not circulating to the surface
during the primary cementing of the surface casing. Teague approved running a one inch string
down the annulus to 500 feet and from there cementing the annulus to the surface allowing two
fresh water reservoirs that were supposed to be isolated from each other to communicate with
each other on the annulus.
Teague ·denied Wright's allegations that he was willing to allow completion reports
without bringing them in compliance with the rules. Rather, it was Teague's position that
Commission employees should help operators by providing them with information needed to
comply. Teague wa-.s upset with Wright's failure to come forth with needed information and
admitted·temporarily appointing Papale because he head ~ractical knowledge and _a fair amount
of humility. (RX-22, pp .l-4). Regarding the appointment of Aton Motal and Fisher to deal with
Monty Mc Carver of.Nabors Completion, Teague did so to provide McCarver with a fa,ir and
·productive conversation with the Commission as opposed to dealing with Wrigpt, who devised
very different and costly suggestions when a variance arose.

Wright then cited various instances involving a lack of understanding and disregard of
the rules. )'hese allegations included a review of completion reports by Nancy Cook, Pete Fisher,
and Aton Motel and their improper approval of remedial squeezing of surface casings and
improper writing up the entire plugging procedure without requiring the operator to properly
isolate the base of usable quality water. He also cited their refusal to discuss staff issues with
Teague and their limitations on his access to i.nfonnation from Austin. (RX-22, pp._ 9-12).

12.75
-7-

App. 26

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 116
Page: Date
116 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 116

Date Filed: 01/24/2020

Operators continued to file . complaints against Complainant regarding his inability or
unwillinooness to provide practical solutions to drilling problems. In December 2012, Monty L.
McCarver, operations manager for Nabors Completion & Production Services Company,
cornp'lained to Teague that every time they called to get a variance in plugging operations,
Complainant came up with costly and impractical methods. In turn, Teague assigned other
personnel, including himself and Fisher, to address these problems while removing Complainant
In response, Complainant filed a fonnal complaint with Gil Bujano, contending bis removal was
in retaliation for a previous complaint he filed against Teague and Fisher in September 2012 and
as a means to demean him and to impair bis ability to have operators comply with the rules. (CX32-34).
On April 17, 2013, Fernandez informed Teague that Complainant had filed a complaint
alleging that District 3 management had created a hostile work environment due to their lack of
understanding of the rules, regulations, and engineering principles associated with the
responsibilities of a district office. In support of his complaint, Complainant. cited instances
wherein Teague approved a completion packet involving the use of pai.1:ial plugs in inappropriate
situations and wherein Fisher, in consultation with Anton Motal, improperly approved the
remedial squeezing of a surface casing of a new well followed by- an improper remedial
cementing of another surface casing. Wright also asserted Teague had improperly limited bis
access to information and made other assertions which Teague denied. (CX-37-47). Regarding
Fisher, Wright alleged he came to District 3 .without a proper tmderstanding or regard for the
rules and improperly turned over responsibilities for reviewing completion reports ~o clericals,
which Fisher also denied. (CX-56-59).
On May 17, 2013, Fernandez and Bill Miertschin from Respondent's Austin office
travelled to the Houston District Office to conduct a Form P-112 "Perfo1mance Cotmseling»
session of Wright. Teague and Fisher attended this counselling session. A summary of the
counseling in RX-20 stated the following:
·
This counseling session is to remind you of past conversations we
have had with you regarding your performance, along with
suggested improvement that has been addressed in your earlier
EPE's. All issues that you may .have regarding your work
assignments should first be brought to the attention of your District
Director before you contact the Deputy Director of Field
Operations or the Director of the Oil and Gas Division: Exceptions
may be limited to those issues outlined in the Equal Employment
Opportunity section of the Employee Handbook. The use of the
"chain of command" has been brought to your attention in the past
and you are reminded that you are expected to follow ·these
instructions.
Unsolicited complaints continue to be . received regarding your
relationship with operators. This continues to occur despite our
efforts to help you with your work relationships. Operators report
that you are difficult to work with, you exhibit rude behavior, and
you are condescending in your dealings with them, and that you

12.758
-8-

App. 27

'-..J

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 117
Page: Date
117 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 117

Date Filed: 01/24/2020

have resorted to "name calling." Operators complain that you are
unreasonable and do not attempt to offer solutions to bring them
into compliance with Commission rules. The Commission expects
you to behave in a professional manner with Commission staff and
industry representatives.
Your work assignment does not include any management duties.
Yet) you continue to insert yourself into managing co-workers
when that is clearly not your assignment. This behavior disrupts
the workplace. You are not to intervene in the management of the
district office and its staff. If you believe there is a need for your
involvement, you must contact the District Director or Assistant
District Director.
A great deal of time has been consumed By management at the
district office and in Austin in dealing with your issues.
Improvement in your behavior is required. Failure to do so may
result in further disciplinary action up to and including termination
of your employment with this agency.
(RX-20).
~

In response, Wright appealed by asking for specific incidents supporting the above
evaluation, claiming he had not been provided with such information in the past (RX-20, p. 2).
On May 23, 2013, Gil Bujano replied, indicating \Vright's response demonstrated resistance to
supervisor guidance, which if not corrected could lead to his termination. (RX-24).
On May 31, 2013, Kathryn Jaroszewicz (Jaro), a consultant with Miller Consulting Inc.,
submitted an application with Complainant for an alternate surface casing program and utilized a
new form approved by Teague in January 2013 (which did not require the number of centralizers
to be listed for the BUQW on the second string when a short casing is run and did not address the
issue of whether the bottom 20% of the surface casing was going to be cemented with critical
cement). Complainant told the consultant that she needed to use an older forin and list the correct
number of centralizers.5 Jaro stated she would supply the re.quested· information but was
confused as to the correct form, new or old, to. be used. (STF-6-8): When Teague leamed of
\Vright's treatment of Jaro, he informed her she did n9t have to fill out another form_ Rather, sp.e
could e-mail or phone Wright and give him the number of centralizers needed to fulfill the
requirements of Rule 13 whereupon Complainant could alter the form she submitted, initial the
alteration, an1 approve it. (RX-25).

In January of 2013, Teague approved use of an Alternate Surface Casing Program fonn (January ASCF)
in District 3. In a February 5, 2013 e-mail, Teague requested comments from District 3 technical staff on
changing the January ASCF form to a form he had used in other districts (February ASCF). On February
6, 2013, Complainant advised Teague he would have to get additional information from operators to
review their alternate surface requests if Teague adopted the February ASCF form, which he did. (STF35).
12.755
5

-9App. 28

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 118
Page: Date
118 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 118

Date Filed: 01/24/2020

On June 4, 2013, Teague e-mailed Wright and told him the new form contained enough
information to approve Jaro's request regarding the issue of the sufficiency of cement. He
informed Wright _that the new form addressed by the question of whether the operator planned on
circulating cement to the surface on aU casing strings protecting usable-quality water. Teague
then asked Wright if he had approved her request as Teague had informed her. (RX-23).
The following day, Wright e-mailed Teague, telling him that the ·new fonn did not
address all issues raised by SWR 13(b)(2)(F), unless Teague was re-interpreting SWR
13(b)(2)(F) to eliminate the requirement that centralizers be run from BUQW to the surface. He
also stated the new fo1m did not ask for the centralizers that had been required from the BUQW
on the second string when a short surface casing was run. Further, SWR 13 requires the bottom
20% of the surface casing be cemented with critical cement which the new
did not address
or require the operator to provide the data to verify. 'Wright then stated that the RCC's failure to
review the data that operators had been submitting for the past five years amounted to "gross
negligence" ·since operators made e1Tors in the past that did not comply with the regulations
intended to protect fresh water.

form

Wright then stated:
If you are infoiming me that it isn,t my job to conduct the RCC's
due diligence review of these applications and/or that you're
revising these criteria, I will proceed accordingly. Your e-mail
below appears to indicate your position on cement; however I will
hold the application for your interpretation of the centralizers issue
or the operator's response.
(RX-23, p.l) . .

On June 6, 2013, Teague, in an e-mail to Bogan and Fernandez, recommended further
disciplinary action of Wright's due to his refusal to comply with'the directives of bis counseling
session. (RX-25). On June 10, 2013, Jaro submitted the correct number of centralizers for the
alternate surface casing request for the well named "01 Anny Unit #1," which was the well Jaro
had originally requested an alternate surface casing. form. On June 10, 2013, Wright approved
Jaro,s request. (STF-8-14).
On June 20, 2013, Respondent terminated Wright due to bis refusal to comply with
Respondent's directives to work with management and staff and to ·assist operators in resolving
compliance problems. This included the most recent issue of assisting an operator on how to
resolve a casing exception request. Instead of resolving this issue as instructed, Wright engaged
Teague in an e-mail debate and turned a simple resolqtion into a complex process by accusing
Teague of incorrectly reinterpreting rules, interfering with bis ability to perform his duties, and
characterizing Teague's actions as "gross negligence." In so acting, Wright ignored prior
warnings that such action could lead to bis termination.

C. Complainant's Testimony
12.75
- 10 -

App. 29

\,....,J

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 119
Page: Date
119 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 119

Date Filed: 01/24/2020

Wright testified that he used the Alternate Surface Casing Program Form (ASCF)
approved in January 2013 rather than the ASCF approved by Teague in February 2013, because
the January form provided more information. Further, he interpreted Fernandez's comments that
his use of the January 2013 form was not required by his job to be the primary reason for his
termination even though he allegedly insisted on using the January form to protect underground
sources of drinking water in furtherance of the Safe Drinking Water Act.· (Tr. 518-519).
Regarding his communication on May 31, 2013 with Jaro, Wright advised her that the
use of seven centralizers was insufficient and that she .should fill out the January ASCF form
with the correct number of centralizers. (CX-70). Previously, she had used the February ASCF
form. Wright testified that the January ASCF form allowed the reviewer to evaluate more
detailed information regarding cement volume, the placement of centralizers on the surface, the
second string of casing,
and the strength
.
. of the casing. (Tr.....522).

. ~ -

Twenty minutes later, Jaro responded to Wright's e-mail saying she would update the
information concerning the centralizers when she received it from the operator. Further, she
requested information as· to which ASCF form to use. About 5 minutes later, Marie· Blanco
informed Peter Fisher of the correspondence and within seven minutes, Teague sent an e-mail to
Jaro telling her i.t is not necessary to submit another form but simply to advise Wright of the
number of centralizers to fulfill the requirement ·of Rule 13. On June 3, 2013, Wright e-mailed
Teague, with copies to Fernandez and Fisher, stating it appeared that Teague was telling him that
he could no longer request information from the operators· regarding whether they were planning
on using sufficient amounts of cement to comply with the rules. (CX-168-170; Tr. 524-526). On
June 3 and June 7, 2013, Jaro e-mailed the operator indicating "They (Complainant) would not
indicate the number of centralizers needed to proceed with the application" to which the operator
indicated on June 7, 2013 that he would run at least 20. On June 10, 2013, Jaro relayed with this
information to Wright, and he approved the applicatio~ (CX-186-192, Tr. 531-532).
. Wright testified that bis use of the January form, which requested additional information,
constituted protected activity. Further, Wright was told by Teague that the February form
contained sufficient information to approve operators' request However, Complainant disagreed
with Teague, because the February form did not ask for the number of centralizers from the base
of usable quality water in the second string. Teague accused Wright of doing a detailed analysis
of alternate surface request, which was not his job, and told Complainant he could calculate the
number of required centralizers from the February form. (Tr. 544-549). Wright complained of
being subject to a hostile ,vork atmosphere in February 2013 when he was assigned to bring
wells into compliance. According to Wright, Teague stated operators accused Wright of being
unreasonable and not offering solutions. As a result, Teague ordered him to approve completion
reports and refer them to Austin for resolution. (Tr. 591-596).
On cross examination, Wright denied being told by his ·supervisors that he needed to
improve bis relationships with co-workers and industry operators by not only pcm.ting out
violations but suggesting alternative ways to achieve compliances. (RX- 9-11, 16; Tr. 634-641).
Yet, in the counselling session, he admitted being reminded of his duty to improve relations or be
terminated. for failing to do so. (Tr. 648-652).

12.759
-11-

App. 30

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 120
Page: Date
120 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 120

Date Filed: 01/24/2020

Regarding the alternate surface casing request of Jaro for "01 Army Unit #1" (CX-146,
RX-25) which she submitted on May 31, 2013 usni.g the February fonn, Wright knew the
number of centralizers (7) was more than enough for the surface casing set at 825 feet but not
enough for the base of usable quality water set at 2,025 feet which had to be protected. Rather
than get on the phone and ask additional questions to detennine the proper number and
placement of the centralizers, Wright sent Jaro the January form to complete, although in doing
so he was going beyond what bis duties required. (Tr. 679-681 ). ·

\..J

D. Testimony of Raymond Fernand ez, Charles Teague, Peter Fisher, & Mark Bogan
Fernandez testified that he and Gil Bujano, Division Director, recommended to Milton
Rister, Executive Director, that Wright be terminated for unprofessional and unacceptable
behavior with industry operators and staff, including incidents reported directly to them by
operators and outside experts who claimed that Wright had been rude to them, called them
"stupid" and "liars," and refused to work with them in resolving problems. (Tr. 106-108, 126131 ). As a result of Wright's misconduct, Respondent fell far behind in its work due to an
undersized staff and a booming :industry as well as due to the delays caused by dealing with the
complaints generated by Wright. (Tr. 134-135).
Regarding the May 31, 2013 alternate surface casing request of Jaro, Fernandez found
fault with the manner in which Wright handled the request and how Wright dealt with the
deficiencies in this request Instead of calling the operator and resolving the deficiencies over the
phone, Wright chose not to do as Teague had instructed him to do in similar situations and
complete the process in a few simple steps. Rather, Wright told J aro to fill out the older and more
detailed form as opposed to the less detail form approved in February. Teague told Jaro it was
not necessary to fill out the older and more detailed January form but simply to inform \¥right of
the number of centralizers to be used. Then, Wright could initial the changes on the February
form and submit it for approval (assuming it correctly identified the number of centralizers). It
was not necessary to provide the additional information relating to cement volume as long as the
operator indicated that it was going to circulate cement to the surface. (Tr. 164-166). In essence,
Femandez stated it was not Wright's duty to redesign the operator's casing program but rather to
determine if the operator was going to circulate cement back to the surface and the number of
centralizers to be used. (Tr. 181-187)..

In addition, Fernandez also testified that Wright was terminated not for insisting on
completion of the older January alternative casing form but for the unprofessional manner in
which he handled the May 31, 2013 alternate surface casing request of Jaro which could have
been determined by use of the Feb~ary alternative surface form, initializing the correct number
on the February form she had already used, and approving it as corrected. Instead, he instructed
Jaro to fill out the January form, which caused unnecessary confusion and delay. (Tr. 216-221,
225-227, 231-238, 287, 288).6 In so doing, Complainant admittedly went outside bis instructions
and demands ofhis office. (Tr. 271-281).7
A copy of the new and more streamlined application for alternate surface casing program form as
authorized by District Director Teague and used by Ms. Jaroszewicz appears at RX-21. A copy of the
older form that Complainant insisted that Ms. Jaroszewicz fill out in addition to the newer form appears
as RX-23, pp. 4-5. Respondent admitted the older form required more detailed information.

6

12.75
- 12-

App. 31

.- ''-...,/

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 121
Page: Date
121 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 121

Date Filed: 01/24/2020

In deciding to terminate Complainant, Fernandez took into consideration Teagues June
6, 2013 e-mail in which Teague stated that Complainant refused to correct the errors on the
February alternative casing form, initial the changes, and sign it. Complainant failed to inform
Jara of what was needed for approval. Wright's behavior was not the correct way to handle the
problem. Instead, Complainant characteiized Teague's efforts as incompetent and a disregard
for rules by creating _a hostile work environment
In his e-mail, Teague stated that
Complainant'.s conduct was not professional and a manifestation of being difficult to work with,
about which he had been warned "during his counselling session on May 17, 2012. (CX-67; RX20, 26; Tr. 289). 8
Teague, who retired from Respondent on December 31, 2014, and was District Director
for District 3 from May 1, 2012 to December 31, 2014, testified that he recommended additional
disciplinary action (not necessarily termination) due to Complainant's refusal to follow the
directives ofhls counselling session of May 21, 2013 . . Specifically, Complainant was directed to
behave in a professional manner with Commission staff and industry representatives and to cease
being arrogant, insolent, and insulting to Commission managers and operators. He was also
directed with avoiding unnecessary obstacles to getting paper work done or approval, holding up
approval of requests form minor issues, issuing a vague request for information, telling
individuals to refile applications when the simple solution would have ·been to get on phone, and
advising operators of deficiencies. (Tr. 338-339).9 Teague cited instances of Wright's

7

Fernandez testified about other instances of unprofessional conduet by Wright in April 2012 when
Fernandez received unsolicited complainants from regulatory 'analysts alleging Wright was rude, called
one stupid, and was impossible to work with. (Tr. 106, 131, 248). Fernandez also received other
complaints about Wright being unable to work with by a former employee who had retired and was
working for an outside contractor and from another contractor accusing Wright of calling him a liar. (Tr.
107-108, 247, 313-314). Fernandez cited another instance of Complainant not getting along with fellow
employee, Terry Papak, when he complained about an instance when Papak was appointed to supervise
the Houston office for several days. (Tr. 311-313). Former employee Doug Storey complained to ·
Fernandez about Complainant unduly delaying the proces·sing of his applications after leaving
Respondent and going to work for an outside contractor. (Tr. 315-316).

e RX-26 sets forth Fernandez's reasons for terminating Complainant, which amounted to Complainant's
unacceptable behavior with Commission staff and industry personnel who had previously complained
about Complainant's refusal to work with them in resolving reguJ~tory issues as exemplified by his
treatment of Ms. Jaroszewicz's May 31, 2013 surface application request. Instead of following
Fernandez's admonition to improve his working relationship with staff and outside contractors as directed
in the May 21, 2013, counselling session, Wright ignored this advice knowing such conduct could lead to
·his termination. Fernandez summarized his position in a subsequent affidavit to DOL. (RX-33).
Complainant also ignored the May 31, 2013 instruction of Gil Bujano, Director of Respondent's, Oil and
or be terminated. (RX-24).
Gas. Dimsion to improve his conduct
.

After the counselling session of May 23, 2013, Complainant appealed what he had been told to Gil
Bujano, Director of the Oil and Gas Division, who concluded Complainant was continuing to reject the
guidance of his supervisors. In turn, he advised Complainant that continued rejection could result in his
termination. (RX-24). Complainant's subsequent treatment of Ms. Jaroszewicz on May 31, 2013 led to
bis
termination on June 21, 2013. (RX-26-27).
12.75
9

-13 App. 32

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 122
Page: Date
122 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 122

Date Filed: 01/24/2020

misconduct wherein Wright made compliance unnecessarily difficult and unpleasant, especially
the May 31, 2013 request by Jara. (RX-34; Tr. 347-367, 369-378). The only thing missing from
Jaro's application was the correct.number of centralizers, which if not performed as answered on
the new form, her application would not be approved and no drilling commenced.(Tr. 180-189,
218,219).

\_/

It was not Wright's job to redesign casing problems but to work with operators using the
newer application forms. If operators did not properly case and cement the well, then Respondent
would not approve the completion report and no production would be allowed. (Tr. 225-226,
:2,30-233). Teague testified that Wright, rather than accepting liis directive, accused him and
Respondent of gross negligence and suggested it was not bis job to diligently review alternative
surface casing requests, (RX-25, p. 2; Tr. 445- 450). Teague then cited Complainant's
inappropriate treatment of former employee Doug Storey by demanding an apology for not
allegedly calculating the correct number of centralizers, his refusal to work with lvfi.chael Simms
on a mud pit issue in March 2013', and his humiliation of operator Hendershott, who asked for
his help in resolving compliance issues only to be met with threats . of finding additional
violations in April 2013. (RX-12, 14; Tr. 469-477). 10
Fisher, currently District Director for District 3 since August · 17, 2015 and formerly
Assistant Director for District 3, confirmed the occurrence of the Terry Papek and Hendershott
incidents. (RX-11; Tr. 698-700). Fisher also testified th.at Complainant mishandled Jaro>s ·May
31, 2013 alternate surface request and could have calculated the number of centralizers to be run,
informed her of that number, and then approve that request as modified without having her:
complete the older form. Instead, Complainant turned a simple request into a more complex
proceeding in disregard of Respondent's policy of. streamlining the approval process while
protecting ground water. (Tr. 704-709).

.-

.'-.._/

Bogan, the Human Resources Director for Respondent, testified that in response to
internal complaints Wright filed against Teague· and Fisher for creating a hostile work
environment, he learned 't hat Wright had problems with other co-workers and operators such that
operators went out of their way to avoid contact with Wright because they found rum difficult to
work with. (RX-7-8; Tr. 760-762). Bogan testified Complainant was terminated for not
following Respondent's procedures. (Tr. 752-753). Further, when terminated, Wright did not
claim he was being retaliated against for engaging in protected activity in violation of.the Federal
Water Pollution Act or the Safe Drinking Water Act. More importantly, Respondent did not
terminate Complainant for engaging in such activities. (Tr. 754-755).

V. 1'IIE PARTIES' POSITIONS

10

Storey cited other examples of Complainant's lack of professionalism. On June 15, 2010, Complainant
arrogantly accused Storey of not correctly calculating the correct number of centralizers and demanded a
letter apologizing and stated it would never happen again. (RX-17). On April 16, 2013, Storey informed
Fernandez of Complainant again unreasonably demanding a letter of apology from Storey for allegedly
miscalculating the number of centralizers and holding up completion reports for punitive reasons. (RX19).

12.7 4
- 14 -

App. 33

'" -../

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 123
Page: Date
123 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 123

Date Filed: 01/24/2020

A. Complainant
On remand, Complainant questions which exhibits and transcripts can be referenced as
evidence. In regards to whether he engaged in protected activity under the Acts, Complainant
offered several instances where he sought to protect usable quality water, such as ensming
compliance with pollution prevention, reviewing request for exceptions to SWR 13, and
providing Jaro with a J anuaiy ASCF form requiring the submissi9n of all requested information.
In particular, Complainant asserts the information requested on the Januaiy ASCF form would
enable him to make a more accurate evaluation of the cement design for wells applying for
alternate surface casing exceptions and to identify design oversights that could not be identified
with the information requested on the February ASCF form. Further, Complainant argues the
January ASCF form allows for a more accurate evaluation of the proposed cementing program
and that the Acts p~ohibit knowingly rendering inaccurate monitoring devices or methods.
(Cornp. Br., pp. 1;7-11).
Complainant also contends Teague's switch to the February ASCF form was meant to
eliminate his collection of the more detailed information .requested iri the January form and to
avoid Complainant creating any problems in approval. Moreover, Complainant's termination
letter specifically addressed his use of the January ASCF form to justify his termination of
employment with Respondent, despite the testimony of both Teague and-Fernandez wherein they
confirm the January form provides a more accurate evaluation of an operator's proposed casing
design modification. (Comp. Br., pp. 12-14).

In addition, Complainant sent an email to Teague on June 5, 2013 wherein he pointed out

technical inaccuracies that the February ASCF form introduced into the SWR 13 approval
process. Complainant's alleges Teague's testimony in regards to this email makes it clear that he
was aware of bis complaints about the environmental issues of protecting fresh water. Instead of
responding to Complainant's concerns, Teague submitted this email to Fernandez and
recommended further disciplinary action against Complainant. (Comp. Br., pp. 14-20).

B. Respondent
On the other hand, Respondent argues Complainant failed to present evidence that he
reasonably believed that the practices complained of could result in violations of the SDWA or
FWPCA. Specifically, Respondent contends Complainant's hostile work environments
complaint does not amount to protected activity since it merely amounts to a list of criticisms of
his supervisors' performance and perceived professional slights that fail to demonstrate a
reasonable belief of possible water contamination. In addition, Complainant failed to show th.at
bis decision to use the January ASCF form amounts to protected activity. Further, Respondent
argues Complainant's June 2013 email to Teague does not constitute protected activity as it fails
to demonstrate a reasonable belief that Respondent was~ violatio.n of the Acts. (Resp. Br., pp.
11-20).
Even if Complainant engaged in protected activity, Respondent asserts Complainant
cannot establish a causal connection between his alleged protected activity and any adverse
employment action. Rather, Complainant was terminated due to his uncooperative conduct in

12.7 6
- 15 -

App. 34

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 124
Page: Date
124 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 124

Date Filed: 01/24/2020

dealing with operators and colleagues. Further, Respondent argues Complainanfs tenninatj.on
would have occurred in the absence of any protected activity. (Resp. Br., pp. 20-25).

VI. DISCUSSION
A . .Prima Facie Elements of Safe Drink Water Act (SDWA) and Federal Water
Pollution Control Act (FWPCA) Violations
The purpose of the SDWA "is to assure that water supply systems serving the public
meet minimum national standards for protection of public health." H.R REP. 93-1185, 1974
U.S.C.C.A.N. 6454, 1974 WL 11641, 6454 P.L. 93-523; see also Nat. Res. Def Council, Inc. v.
E.P.A., 812 F.2d 721, 723 (D.C. Cir. 1987). In addition to "establishing overall minimum
drinking -water protection standards, for the nation," the statute provides "for delegation of
specific regulation and enforcement to states," including state primary enforcement of
underground injection processes to protect sources of drinking water. HR], Inc. v. E.P.A., 198
F.3d 1224, 1232 (10th Cir. 2000),.as amended on denial of reh>g and reh,g en bane (Mar. 30,
2000) (citing 42 U.S.C. § 300h). The Congressional declaration of goals and policy for the
FWPCA provides that "[t]he objective of this chapter is to restore and maintain the chemical,
physical, and biological integrity ofthe Nation's waters." 33 U.S.C. § 1251.
Both the SDV..,TA and the FWPCA contain an.ti-retaliation provisions prohibiting
employers from discriminating against employees who have participated in activities protected
by the statutes. Spe<;:i:5.cally, the SDWA prohibits employers from discriminating against an
employee who "assisted or participated ... in any other action to carry out the purposes of this
subchapter," and the FWPCA prohibits employers from discriminating against an employee who
"filed, instituted, or caused to be filed or instituted any proceeding under this chapter or has
testified or is about to testify in any proceeding resulting from the administration or enforcement
of the provisions of this chapter." 42 U.S.C. 300j-9(i); 33 U.S.C. § 1367. Under the
environmental whistleblower statutes, for a complainant's acts to be protected, the complainant
must show that he. reasonably believed that he raised environmental or public health .and safety
concerns governed by or in furtherance of the relevant act(s). Williams v. Dallas Indep. Sch.
Dist., ARB No. 12-024, ALJ'.No. 2008-TSC-001 (ARB Dec. 28, 2012).
To prevail op. a whistleblower complaint, a complainant must establish by a
preponderance of the evidence 'That the protected activity caused or was a motivating factor in
the adverse action alleged in the complaint." 29 C.F.R. § 24.109(b)(2). If a complainant makes
this showing, "relief may not be orderea if the respondent demonstrates by a preponderance of
the evidence that it ·would have taken the same adverse action in the absence of the protected
activity." Id.
B. Whether Complainant Engaged in Protected Activity Under the Acts

12.7 7
- 16 -

App. 35

\....J

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 125
Page: Date
125 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 125

Date Filed: 01/24/2020

Under the SDWA and FWPCA, an employee engages in protected activity if he or she:
1. commenced, caused to be commenced, or is about to commence or cause to be
commenced, a proceeding under one of the federal statutes listed in §24.lOO(a) or
proceeding for the administrative or enforcement of any requirement of any
requirement impose under such statute;

a

2. testified or is about to testify in any such proceeding; or

3. assisted, participated, or is about to assist or participate in any manner in such a
proceeding or in any other action to carry out the purposes of such statute.
29 C.F.R. § 24.102(b).
Protected activities include external and internal complaints, written or oral, and extends
to the filing of complaints under OSHA when such complaints touch on the concerns for the
environment and public health and safety that are addressed by the statute. Melendez v. Exxon
Chemical Americas, ARB No. 96-051, AIJ 1993-ERA-6, slip op. at 17 (ARB July 14> 2000).
Whistleblower protection requires an employee's complaints be grounded in conditions
constituting violations of the environmental acts. Powell v. City of Ardmore, Oklahoma, ARB
No. 09-071, AlJ No. 2007-SDW-1 at 5 (ARB Jan 5, 2001). The reasonableness of a
whistleblower's belief regarding statutory violations by an employer is determined on the basis
of the knowledge available to a reasonable person in the circumstances within the employees
training and experience. Melendez, ARB No. 96-051, ALJNo. 1993-ERA-006, at 27.
While raising internal complaints to an employer can be considered to be protected
activity, "[p]rotected activity cannot be based on assumptions and speculation." K.uehu Donna
Sweetie v. United Airlines, ALJ No. 2010-CAA-00007, at 13 (May 25, 2012) (finding that
Complainant did not engage in protected activity under the FWPCA° where Complainant made
complaints regarding alleged environmental violations pertaining to water stream, but was
unable to explain the basis of her belief that grease from a grease trap on employer's premises
would enter the water stream in question, rendering her complaint speculative. 11 ). "An employee's
protected activity must be grounded in conditions constituting reasonably perceived violations of
the environmental acts." Id. at 13. "In other words, the complainant must demonstrate that [bis]
complaints were based on a reasonable belief that the respondent violated the applicable
environmental laws." Id. "Reasonable belief must be scrutinized under both a subjective and
objective standard; namely (the complainant] must have actually believed that the employer was
in violation of an environmental statute and that belief must be reasonable for an individual in
the [complainant's] circumstances having his training and exl'.erience. » Id.
Employee complaints are not protected simply because the employee "subjectively thinks
the complained of employer conduct might affect the environment." Kesterson v. Y-12 Nuclear
Weapons Plant, ARB Case No. 96-173, ALJ Case No. 95-CAA-0012 at 3 (April 8, 1997).
"Internal complaints which could only threaten the environment if many speculative events all
occurred" are not protected. Kesteron, ARB Case No. 96-173, at 4. Indeed, "a complaint that
expresses only a vague notion that the employer>s action might negatively affect the environment

12.7
- 17 -

App. 36

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 126
Page: Date
126 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 126

Date Filed: 01/24/2020

'is not protected_,, Saporito v. Central Locating Serv., Ltd., ARB No. 05-004, ALJ No. 2001CAA-00013 at 6 (Feb. 28, 2006).

In remanding tbis matter to the undersigned, the Board found the appropriate standard ill
which to determine whether Complainant engaged in protected activity is whether he reasonably
believed the actions he reported or complained about constituted environment hazards
irrespective of wbethe;r Respondent's actions violated a particular environmental.statute. Wright
v. Railroad Comm 'n., ARB No. 16-068, (ALJ No. 2015-SDW-00001) (ARB Jan. 12, 2018) slip
op. at 6-12.
·
·
In discussing the reasonable or objective belief standard, the Board found the following
are to be considered protected activity under the Acts if Complainant reasonably believed that be
was raisillg environmental or public health and safety concerns governed by or in furtherance of
either SDWA or FWPCA:
.
.
1. Requesting consultant Kathryn J aroszewicz (Jaro) complete and submit
additional information requested on an older Januaiy 2013 Alternative Surface
Casing Form as opposed to the newer form which Teague had used without
any problem and had implemented ill February 2013.
2. E-mailing Teague on June 5, 2013 protesting that Respondent was restricting
him from doillg his job to protect drinking water by denymg his request to use
the old form; and
3. Aileging on April 4, 2013 the creation of a hostile work environment by .
Respondent and ignoring their responsibility to require operator compliance
witb.m the roles.

Wright v. Railroad Comm'n., ARB No. 16-068, (ALJ No. 2015-SDW-00001) (ARB :Jan. 12,
2018) slip op. at 7-8. The Board made no rulmg as to whether Complainant held a reasonable
belief for each of these allegations. As such, each allegation will be discussed individually.
1. Complainant's Use of th e January 2013 ASCF For m
Complainant's first specific allegation of protected activity acknowledged by the Board is
his request that Jaro send him additional mfoimation USillg the January 2013 ASCF form as
opposed to the 1'.ebruary 2013 ASCF form. Complainant argues he preferred the use of the older
January 2013 form as it would apparently unearth any errors and ensure that operators were
complymg with the rules. I disagree. Not only do I find Complainant's illSistence in using the
older form did not carry out the purpose of either Act, I also find Complaillant did not have a
reasonable belief that he was raisillg environment or public health and safety concerns when he
used the January 2013 ASCF form.
·At the 2015 hearing, Respondent admitted that the older January 2013 form used by
"\¥right required more information than the newer February 2013 form. However, the February
2013 form was more streamlined in processing the number of centralizers necessary to guarantee

12.7 8
- 18 -

App. 37

\ ..J

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 127
Page: Date
127 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

.---..

Document: 00515284595

Page: 127

Date Filed: 01/24/2020

adequate cement circulation. Moreover, the newer form allowed for Complainant to more
quickly approve and correct mistakes by noting the errors, if any, and approve it subject to
modification. (Tr. 325, 350-351, 597-98; RX-25).
I find no basis to believe Complainant was motivated by a desire to carry out the
purposes of either Act. Rather, I find he relies on both Acts in an effort to escape the
consequences of his misconduct in not following Teague;·s directions to reach out and work with
operators, inform them what was missing from an· application, and note it on the application. In
fact, Teague info1med Complainant that the .newer form contained sufficient information to
approve faro's request for circulating cement to the smface.

,,,-....

Wbile Complainant contends Respondent took issue with the technical merits of the
January 2013 ASCF form as well as the fact that he asked Jaro for more infoI:Jl.ation it dyemed
unnecessary, I find Complainant.did not send the older form to Jaro to assure the water systems
met the mini.mum national standards or maintain the chemical, physical, or biological .i ntegrity of
the Nation's water. Rather, his use of this form reflects his refusal to work cooperatively with
operators and co~ssion employees. Instead of having Jaro submit additional information,
Complainant could have simply told J aro the correct number of centralizers that could be
determined from the application itself. By requesting Jaro to complete another application,
Wright essentially created conflicting instructions and confusion that could have easily been
avoided by telling J aro the correct number of .centralizers to use and then noting it on the newer
application. (Tr. 238-239, 348-349). By not telling Jaro the correct number of centralizers,
Wright unnecessarily delayed the approval of J aro 's application.
Additionally, I find he failed to offer any support that he reasonably believed his use of
the January 2013 form raised environmental or public health and safety concerns and-that the
February 2013 ASCF form was inadequate or failed to carry out the purposes of the Acts. Rather,
the record evidence reflects that the newer form had been widely used in Teague's former district
without . any apparent error. More important, the February 2013 form contains language
indicating an operator's plan to circulate cement to the surface on all casings strings protecting
usable quality water. (CX-146). Complainant also acknowledged that the use of the February
form was not improper and admitted he ultimately used this form to approve Jaro's May 2013
application. (Tr. 214, 283-284). In addition, Fernandez testified that an operator's application
would never be approved if the operator did not use the proper number of centralizers or the
proper amount and quality of cement. (Tr. 166-167).

.
In reviewing Complainant's allegations, Complainant argued. he wanted additional
information from Jaro in order determine whether the operators planned to ·use sufficient
· centralizers. However, Complainant failed to address how he reasonably believed this
information would protect drinking water and reveal any environmental or public health and
· safety concerns. Contrary to his ass·ertions, Complainant held a speculative and ,unreasonable
belief that his use of the older form was proper. In: addition, Complainant overstated the
necessity of additional information on the old form. Instead, Complainant caused unnecessary
delay and misstated his role in the compliance. Fernandez testified Complainant's role in
approving alternate swface casing requests was to ensure that operators intended to comply with
the applicable rules at the outset. (Tr. 219). Fernandez further described the process and testified

12.7 5
- 19 -

App. 38

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 128
Page: Date
128 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 128

Date Filed: 01/24/2020

that operators must file a completion report after the well is completed such that Respondent can
detennine if the well is properly cased and cemented_ (Tr. 226). It is upon receipt of this
completion report that Respondent determines if the well was properly built. (Tr. 226). Tbis form
must be approved in order for an operator to be allowed to produce from a well. (Tr. 226, 271-

\...J

272).

Based on the above, it is evident Complainant's use of the January ASCF f01m is based
on an unreasonable objective belief that he was carrying out the pw:poses of either Act. Instead,
his use of the older
stems from bis misunderstanding of his role in the process for ensuring
compliance with Respondent's rules and regulations_ Had Complainant possessed a sufficient
understanding of the compliance process and bis role at the outset of the process, he would have
known the additional information requested on the January 2013 ASCF form was unnecessary
and a cause for delay. Therefore, I find and conclude Complainant did not engage in protected.
activity under either Act when he requested that Jaro send bim information using the January
form on May 31, 2013.
·

form

2. Complainant's June 2013 Email to Teague
Next, the Board held Complainant's June 2013 email to Teague would constitute
protected activity under the Acts if he reasonably believed he. was acting in furtherance of the
SDWA and FWPCA and if he reasonably believed he was raising environmental or public health
and safety concerns. Wright, ARB No. 16-068, slip op. at 10-11 (emphasis added).
Aft~r Complainru;it ~ent Jaro the older form requesting she list the correct number of
centralizers, Teague. informed Jaro that this was unnecessary. (Tr. 348-349; RX-25, p. 3). In an
email to Jaro in which Complainant was copied, Teague asked Jaro to email or phone
Complainant with the correct number of centralizers needed to fulfill the requirements of SWR
13. (RX-25, p.3). Teague also emailed Complainant and informed him that the new February
2013 .ASCF form contained enough information to approve Jaro's request about circulating
cement to the surface. (RX-23).
·
In response, Complainari.t told Teague that the new form did not provide enough
information, because operators make oversights in alternate surface casing designs that do not
comply vvith the regulations intended to protect fresh water. Complainant further elaborated that
it was his opinion "that [Respondent] not taking the five minutes to review the data that the
operators have been submitting to this District for years and should have readily available, rises
to the level of gross negligence." Complainant concluded that if he was being informed that it
was not his'job -to conduct Respondent's due diligence review of applications or that Teague was
revising tbis criteria, then he would proceed accordingly. (RX-23, p. l; RX-25, p. 2).
While Complainant argues bis email to Teague protesting that Respondent was restricting
form doing bis job to protect drinking water is protected under the Acts, I disagree. Wbile the
Board acknowledged Complainant's protests were protected by the Acts if he reasonably
believed he was acting in furtherance of the Acts and raising environmental and public health
and safety concerns, I find Complainant did not hold such a reasonable belief when he emailed
Teague on June 5, 2013. Rather, I find bis protests were the result of bis dissatisfaction with

12.7
-20-

App. 39

\.J

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 129
Page: Date
129 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

12.7 9

App. 40

Page: 129

Date Filed: 01/24/2020

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 130
Page: Date
130 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

12.7

App. 41

Page: 130

Date Filed: 01/24/2020

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 131
Page: Date
131 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

12.7

App. 42

Page: 131

Date Filed: 01/24/2020

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 132
Page: Date
132 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 132

Date Filed: 01/24/2020

I have reviewed Complainant's entire employment record, including his most r~cent
evaluations. From these evaluations that clearly precede his discharge, I note a documented
history of "interpersonal conflicts with operators and Respondent's own staff. In particular,
Complainant demonstrated an unwillingness to work ·with operators in identifying alternative
ways to become compliant such that operators went out of their way to avoid dealing with him
by calling outside Complainant's schedule hours of work. (RX-6, 9, 16; Tr. 105-109, 631, 633634, 640-641, 691-693, 746-747).
"When he became District 3 Director, Teague observed Wright's behavioral problems and
found Wright to be arrogant, insulting, and insolent when working with co-workers, supervisors,
and operators. (RX-17; Tr. 335,""338-340, 465, 466, 477). Instead of helping operators obtain
specific information to process applications, Wright would instead locate a piece of missing or
inaccurate information, issue a vague request for more information, and ask operators .to refile
their applications without providing any guidance. (Tr. 340).
Teague cited a specific example of Complainant's inappropriate conduct wherein
Complainant demanded an apology from former employee Doug Storey for his submission of
incorrect centralizers. Teague also recalled observing Complainant laughing at operator Paul
Hendershott when Hendershott asked for help in resolving well violations . . (RX-12, Tr. 476477). Teague also testified about Complainant's inability to work with Respondent employee
Michael Simms on a technical issue. (RX-14, Tr. 469-470).
Along similar lines, Fernandez testified that he continued to receive complaints about
Wright in 2013 from Storey and two regulatory analysts· who found Wright to be rude and
impossible to work with. (Tr. 106, 130-131, 318). One of these analysts, Carla Mam, emailed
Fernandez on April 12, 2013, and complained about Wright demanding an old alternate surface
request to fill out when Teague had already sent her a new form. (RX-18,
Tr. 314).
.casing
.
.
On May 21, 2013, Complainant received a P-112 employee counseling from Fernandez
wherein he warned Complainant that further misconduct could result in disciplinary action and
even his termination. (RX-20, Tr. 320). Despite this admonition, Wright continued to display
unprofessional conduct On May 31, 2013, Wright received an alternate smface request from
Jaro, a consul~ant to an operator. Wright directed J aro to fill out the old form and indicate the
appropriate number of centralizers although the correct number could be determined from the
new application. (RX-25, Tr. 155-156, 347-348,. 350-353, 369-372, 383-384, 441-442, 520, 597598)_
The record supports a finding that Complainant was terminated due to his uncooperative
conduct in dealing with operators and colleagues. Contrary to Complainant's allegation, Teague
did not take action against rum because of his use of an old environmental application. Rather,
Complainant was disciplined due to his failure to make reasonable efforts to call and inform the
consultant of the correct numb~r of centralizers whi~h could be determined from the new
· application form Complainant ultimately used. Indeed, Fernandez testified Complainant was
terminated as a result of his behavioral problem in dealing with other people. In addition,
Fernandez testified that Complainant was insubordinate and argumentative. (Tr. 232-233).
Further, Fernandez stated he had no issue with the technical aspects of Complamant's work and
that his attitude and unprofessional behavior was the problem. (Tr. 104,327,338).

12.794
- 24 -

App. 43

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 133
Page: Date
133 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

12.796

App. 44

Page: 133

Date Filed: 01/24/2020

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 134
Page: Date
134 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 134

Date Filed: 01/24/2020

directed to improve relations with operators and staff. (Tr. 640-641; RX-16). Similarly, a May
2013 performance evaluation indicated Complainant was difficult to work with, had exhibited
rude behavior, and had resorted to name-calling. (RX-20). Cqmplainant was warned that a failure
to improve his behavior could result in further disciplinary action, including the termination of
his employment. (RX-20).
This undisputed testimony is further colToborated by the testimonial evidence in the
record. For example, Fernandez described Complainant' s relationships with industry
representati.ve and operators as unacceptable and recalled multiple incidents where Complainant
clashed with operators and behaved in a rude and threatening manner. (Tr. 105-109). In addition,
Bogan testified he discovered that operators would call Respondent outside of Complainant's
scheduled working hours to avoid having to work with him. (Tr. 746-747). Further, Teague
described Complainant ·as arrogant, insolent, and insulting. (Tr. 338). He also testified that
Complainant presented unnecessary obstacles to processing approvals, requests, and paperwork.
(Tr. 338-339).
Respondent also successfully demonstrated that Complainant was not reprimanded for
sending Jaro a second fonn or for his email to Teague. Rather, in response to receiving Jaro 's
form, Complainant sent Jaro a second form rather than simply calling her to determine whether
the proper number of centralizers would be used. In so doing, Complainant again demonstrated
his inability to work with operators and his unwillingness to work with operators. As a result of
Complainant's continued behavioral issues, Teague recommended Complainant be subjected to
further disciplinary action and noted Complainant was insubordinate and disruptive. (Tr. 347;
RX-25). Upon receipt ofTeague's recommendation and after consulting with Bojano and Bogan,
Fernandez recommended Complainant be terminated due to his continued behavioral problems.
(Tr. 327-328). Complainant was then terminated on J~e 20, 2013. (RX-27).
Based on the above, Respondent has demonstrated by a preponderance of the evidence
that it would have taken the same adverse action in the absence of any protected activity. Indeed,
Respondent treated Complainant in the same manner it would have treated any other employee
who refused to follow directions. (Tr. 763-764). Contrary to Complainant's assertions,
Respondent terminated Complainant due to his uncooperative behavior and combative attitude.
Despite several warnings and repeated coachings, Complainant failed to follow directions and
act in a professional manner. I am convinced ~at Complainant's misconduct hampered and
impeded his supervisors' ability in dealing·with an overload of problems associated with the
proper enforcement of a booming regulatory business. As such, Respondent has proven by a
preponderance of the evidence it would have terminated him even if he was able to prove that
alleged protected activity was a motivating factor in his discharge.

Vll. CONCLUSION
Pursuant to the Board's instructions, the undersigned has reanalyzed the issue of whether
Complainant engaged in protected activity in light of the expansive definition of what constitutes
protected activity under the Acts. In considering all of the evidence and testimony submitted by
the parties, the undersigned remains of the opinion that Complainant failed to demonstrate he
engaged in protected activity. Specifically, I find Complainant did not have a reasonable belief

12.797
-26-

App. 45

\...J

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 135
Page: Date
135 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 135

Date Filed: 01/24/2020

that he was raising enviromnental or public health and safety concerns governed by or in
fwtherance of either SDWA or FWPCA when he requested Jaro complete and submit additional
information on an older January 2013 ASCF form, when he emailed Teague alleging he was
being restricted fonn doing bis job, or when he alleged the creation of a hostile work
environment in a complaint dated Ap1il 4, 2013.
Assuming arguendo that Complainant engaged in protected activity, I also fmd that
Complainant has failed to establish by a preponderance of the evidence that such activity was a
motivating factor in his termination and that Respondent has shown by a preponderance of the
evidence that it would have terminated him even if he was able to prove that alleged protected
activity was a motivating factor in his discharge. Accordingly, the undersigned finds that
Complainant has failed to produce sufficient evidence to demonstrate by a preponderance of the
evidence that he engaged in protected activity or that Respondent's decision to tem1inate him
was·motivated, at least in part, by.a discriminatory·purpose·. Therefore, I fmd he has not met his
burden under the SDWA and FWPCA and dismiss the instant charges as lacking merit.

VIIl. ORDER
In view of the foregoing, IT IS HEREBY ORDERED that the claim in the abovecaptioned matter: file by Complainant Frederick B. Wright against Respondent Railroad
Commission of Texas is DIS1Y.IISSED with prejudice.

ORDERED this 15th day ofNovember, 2018, at Covington, Louisiana.

o;gitally sljjned by Clement Kennington
DN: CN=Clament Kennington.
OU•Ad:mnlsttstive law Jud!!". <PUS
OOl. OffY.::e of Administrative Law
Judges. L=Covington, Sat.A. C:US

Loc::atioo: Covington LA

CLEMENT J. KENNINGTON
ADMINISTRATIVE LAW JUDGE
NOTICE OF APPEAL RIGHTS: This Decision and Order will become the final order of the

Secretary of Labor unless a written petition for review is filed with the Administrative Review
Board ("the Board") within 10 business days of the date of this decision. The Board's address is:
Administrative Review Board, U.S. Department of Labor, Suite S-5220, 200 Constitution
Avenue, NW, Washington DC 20210, f<?r traditional paper filing. Alternatively, the Board offers
an Electronic File and Service Request (EFSR) system. The EFSR for electronic filing (eFile)
permits the submission of forms and documents to the Board through the Internet instead of
using postal mail and fax. The EFSR portal allows parties to file new appeals electronically,
receive electronic service of Board issuances, file briefs and motions electronically, and check

12.79
-27 App. 46

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 136
Page: Date
136 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

12.798

App. 47

Page: 136

Date Filed: 01/24/2020

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 137
Page: Date
137 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 137

Date Filed: 01/24/2020

Upon receipt of a legal brief filed in opposition to a petition for review, the petitioning party may
file a reply brief (original and four copies), not to exceed ten double-spaced typed pages, within
such time period as may be ordered by the Board. If you e-File your reply brief, only one copy
need be uploaded.

If a timely petition for review is not fi.1ed, or the Board denies review, this Decision and Order
will become the final order of the Secretary of Labor. See 29 C.F.R. §§ 24.109(e) and 24.110.

12.

- 29App. 48

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 138
Page: Date
138 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 138

Date Filed: 01/24/2020

SERVICE SHEET
Case Name: WRIGHT_FREDERICK_B_v_RAILROAD_COMMISSION_
Case Number: 2015SDW00001
Document Title: Decision and Order on Remand
I hereby certify that a copy of the above-referenced document was sent to the following this 15th
day of November, 2018:

aV

Matilda Terrell
Legal Assistant
Vanessa Burgess, Esq.

Associate Solicitor

John Griffin, Esq.
Railroad Commission of Texas

Division of Fair Labor Standards

1701 N. Congress, P.O. Box 1267
AUSTIN TX 78711-2967
{Hard Copy - Regular Mail}

U.S. Department of Labor
RoomN-2716, FPB
200 Constitution Ave., N.W.

WA$HINGTON DC 20210
{Hard Cqpy - Regular Mail)

Kristen Capps, Esq.
8121 Broadway, Suite225
HOUSTON TX 77061
{Hard Copy - Regular Mail)

Julie C. Tower, Esq.
Jackson Lewis
816 Congress Avenue, Ste 1530
AUSTIN TX 78701
{Hard Copy - Regular Mail)

FrederickB. Wright

442 Gammon Drive

HOUSTON TX 77022
{Hard Copy - Regular Mail}

Director
Directorate of Whistleblower Protection Programs
US Department of Labor, OSHA
Room N 4618 FPB
200 CONSTITUTION AVE NW
WASHINGTON DC 20210
{H.ard Copy - Regular Mail)

Regional Administrator
Region 6
U.S. Department of Labor, OSHA
Room602
525 Griffin Street
DAILAS TX 75202
{Hard Copy - Regular Mail}

12.

App. 49

Case: 19-60561
Document:
00515284595
Page: 49
Case: 19-60561
RESTRICTED
Document:
00515299842
Page:Date
49 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561
Document: 00515284595 Page: 49 Date Filed: 01/24/2020
Administrative Review Board
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210

In the Matter of:
FREDERICK B. WRIGHT,
COMPLAINANT,

v.

ARB CASE NO. 16-068
ALJ CASE NO. 2015-SDW-001
DATE:

JAN 12 2018

RAILROAD COMMISSION
OF TEXAS,
RESPONDENT.
BEFORE:

THE ADMINISTRATIVE REVIEW BOARD

Appearances:
For the Complainant:
Frederick B. Wright; prose; Houston, Texas
For the Respondent:
Julie C. Tower, Esq.; Jackson Lewis, P.C.; Austin, Texas
BEFORE:
Paul M. Igasaki, Chief Administrative Appeals Judge, Joanne Royce,
Administrative Appeals Judge, and Tanya L. Goldman, Administrative Appeals Judge

DECISION AND ORDER OF REMAND
The Complainant, Frederick Wright, filed a retaliation complaint under the employee
protection provisions of the Safe Drinking Water Act (SDWA) and the Federal Water Pollution
Control Act (FWPCA), and their implementing regulations. 1 He alleged that the Railroad
Commission of Texas violated the SDW A and FWPCA whistleblower protection provisions
when it retaliated and discriminated against him becau e he raised concerns about requiring oil
and gas operators to comply with rules regulating drilling wells to protect sources of
underground drinking water. Following a hearing, a Department of Labor (DOL) Administrative
Law Judge (AU) dismissed Wright's complaint because he found that Wright did not meel his
42 U.S.C.A. § 300j-9(i) (Thomson Reuters 2011); 33 U.S.C.A. § 1367 (Thomson Reuters
2016);
29
12.678 C.F.R. Part 24 (2017).

App. 50

Case: 19-60561
Document:
00515284595
Page: 50
Case: 19-60561
RESTRICTED
Document:
00515299842
Page:Date
50 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595
2

Page: 50

Date Filed: 01/24/2020

burden of showing that any protected activity motivated the termination of his employment. We
VACATE and REMAND for further proceedings.

BACKGROUND
The findings of fact are set forth in the ALJ's Decision and Order (D. & 0.) at pages 6 to
12. They are summarized below in pertinent part.
On October 1, 2007, the Railroad Commission of Texas hired Wright to work as an
engineer specialist in Houston, Texas.2 The Railroad Commission is the certifying agency for
federal permits under sections 401 and 404 of the FWPCA for oil and gas exploration and
production projects and is the state agency responsible for administration and enforcement of a
program under the SOWA for wells associated with oil and gas exploration and production. As
an engineer specialist, Wright's job included working with the regulated industry to secure
compliance by oil and gas operators with the rules and statutes for which the Railroad
Commission is responsible. Two of Wright's responsibilities with regard to a particular program
involving variance approvals for building oil and gas wells were to 1) insure that operators were
going to circulate cement to the surface, and 2) determine the number of centralizers that were
going to be used. 3
On his first three performance evaluations, Wright received ratings of "meeting the
4
requirements of the position." At his next evaluation, Wright received the same rating "but was
told that he needed to improve his relations with personnel in the office and industry who
hesitated to approach him because they perceived [that he] was unwilling to work out amenable
5
solutions at times." At his October 28, 2011 evaluation, the Railroad Commission rated Wright
as average but suggested that he work for better relations with operators to assist them in keeping
wells on production as well as comply with the rules and regulations and view violations from a
"practical standpoint 'in addition to the straight rules and regulations."' At the next year's
evaluation, the Railroad Commission indicated that Wright still needed improvement regarding
relations with operators with the goal of "providing excellent customer service and making the
path to compliance quick and uncomplicated .... " Throughout Wright's employment, operators
complained that Wright was unable or unwilling to provide practical solutions to drilling
problems.
On December 7, 2012, Wright filed an internal complaint by e-mail to Gil Bujano, the
Railroad Commission's Oil and Gas Division Director, stating that Charles Teague, District
2

The citations in this paragraph are to the D. & 0. at 6.

3

The parties' definitions for technical and industrial terms applicable to this case are in the D.
& 0. at 3-6.

4

The citations in this paragraph are to the D. & 0. at 7-9.

5

This evaluation occurred on October 28, 2010.

12.67

App. 51

Case: 19-60561
Document:
00515284595
Page: 51
Case: 19-60561
RESTRICTED
Document:
00515299842
Page:Date
51 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595
3

Page: 51

Date Filed: 01/24/2020

Director and Wright's supervisor, removed him from assignments to demean him and to impair
6
his ability to make operators comply with the rules. On April 4, 2013, Wright filed a hostile
work environment complaint with Railroad Commission management reporting that Railroad
Commission's leadership 1) were willing to ignore their responsibility to require operators to
comply with the rules, 2) were not requiring operators to bring their wells into compliance on
several occasions, and 3) demonstrated a lack of concern for protected fresh water when they
gave an approval to an operator on September 3, 2012, among other things. 7
On May 17, 2013, the Railroad Commission conducted a "Performance Counseling"
session regarding Wright. 8 During the session, the Railroad Commission told Wright that
operators complained about his relationship v.-ith them and reported that he was "difficult to
work with," exhibited rude behavior, was condescending, and that he called people names. 9 In
response to this counseling, Wright appealed and asked for specific incidents supporting the
events discussed in his performance counseling session, to which Bujano replied, indicating that
Wright's "response demonstrated resistance to supervisor guidance, which if not corrected could
lead to his termination." 10
In early 2013, Kathryn Jaroszewicz, a consultant with one of the operators the Railroad
Commission regulated, submitted a casing exception request to Wright using a form that Teague
11
had approved in January 2013.
On May 31, 2013, Wright informed Jaroszewicz that she
needed to use an older form that was attached to his e-mail and asked her to list the correct
number of centralizers. Teague learned that Wright had asked that Jaroszewicz use the old form
and told her that she did not have to. Teague told Jaroszewicz that she could e-mail or call
Wright to inform him how many centralizers were required. Teague e-mailed Wright and told
him that the new form contained enough information to approve Jaroszcwicz's request about
12
circulating cement to the surface. Wright e-mailed Teague and told him that the new form did
not provide enough information because "operators made errors in the past that did not comply
13
with the regulations intended to protect fresh water." Wright "allegedly insisted on using the
6

D. & 0. at 9 (citing CX 33).

7

Id. (citing CX 56-59); Hearing Transcript (Tr.) at 566. Wright has pointed out on appeal that
while this exhibit was not admitted at the hearing, it was cited by the AU in his decision. We
address this issue in the Discussion section of this decision.

8

The citations in this paragraph are to the D. & 0. at 10.

9

Id. (citing RX-20).

10

Id. (citing RX-20 at 2; RX-24).
The citations in this paragraph are to the D. & 0. at 11-12; see RX 23.

12

See RX-23.

13

Id. at 1.

12.675

App. 52

Case: 19-60561
Document:
00515284595
Page: 52
Case: 19-60561
RESTRICTED
Document:
00515299842
Page:Date
52 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595
4

Page: 52

Date Filed: 01/24/2020

January form to protect underground sources of drinking water in furtherance of the Safe
Drinking Water Act." 14 In the e-mail to Teague, Wright stated that it appeared that Teague was
telling him that he could not "request information from the operators regarding whether they
were planning on using sufficient amounts of cement to comply with the rules," and was
therefore restricting him from doing his job. 15
On June 6, 2013, Teague recommended further disciplinary action against Wright based
on this incident concerning Jaroszewicz's request. Four days later, Jaroszewicz submitted the
correct number of centralizers to Wright, and on that same day, Wright approved her request.
The Railroad Commission fired Wright on June 20, 2013, because he refused "to comply
with Commission directives to work with management and staff and to assist operators in
resolving compliance problems, including the most recent issue of assisting an operator on how
to resolve a casing exception request." 16 Thus, Wright's request to Jaroszewicz, which according
to the Commission exemplified Wright's misconduct, ultimately led (or contributed) to his
termination. 17
Wright filed this action with the DOL, alleging that the Railroad Commission violated the
SDWA and the FWPCA when it terminated his employment. After an investigation, OSHA
issued findings stating that it found no reason to believe that the Railroad Commission violated
either statute and dismissed Wright's claim. Wright timely objected to OSHA's findings and
18
requested a hearing before an ALJ. The ALJ held a hearing in Houston, Texas on December 9
and 10, 2015.
At the hearing, Ramon Fernandez, who had been the Railroad Commission's Deputy
Director of Field Operations for its Oil and Gas Division, testified that he and Bujano
recommended to Milton Rister, Executive Director, that Wright be fired for unprofessional and
unacceptable behavior with operators and staff. This decision was based, in part, on direct
reports by operators and outside experts who claimed that Wright had been rude, called them
"stupid" and "liars," and refused to work with them in resolving problems. 19 Teague testified
that Wright presented unnecessary obstacles to approval, held up the approval of requests for
minor issues, issued vague requests for information, told individuals to refile applications instead
of advising them of deficiencies over the telephone, and otherwise "made compliance
14

D. & 0. at 12 (citing Tr. at 518-19).

15

Id. at 12-13.

16

Id. at 7, 12.

17

Id. at 15, n.10.

18

See 29 C.F.R. § 24.106(a).

19

D. & 0. at 13. Fernandez was retired at the time of the hearing. Peter Fisher and Teague
both directly reported to Fernandez as their supervisor. Id. at 7, n.5.

12.67

App. 53

Case: 19-60561
Document:
00515284595
Page: 53
Case: 19-60561
RESTRICTED
Document:
00515299842
Page:Date
53 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595
5

Page: 53

Date Filed: 01/24/2020

unnecessarily difficult and unpleasant."20 Mark Bogan, the Railroad Commission's Human
Resources Director, testified that Wright was fired for "not following [the Commission's]
procedures. " 21
On May 19, 2016, the AU found that Wright failed to meet his burden of showing that
he engaged in protected activity that was a motivating factor in the termination of his
employment and dismissed the complaint.22 Wright appealed the D. & 0. to the Board. 23 On
appeal, he argues that the Railroad Commission retaliated against and fired him because he
participated in actions to carry out the purposes of the SDWA and FWPCA. He also objects to
many of the ALJ's evidentiary rulings. Additionally, Wright has moved to strike several of the
Railroad Commission's exhibits from the record for various reasons. The Railroad Commission
asserts that the ALJ's findings of fact are supported by substantial evidence.
JURISDICTION AND STANDARD OF REVIEW

The Secretary of Labor has delegated authority to decide this matter on appeal from the
ALJ's decision to the ARB.24 The ARB reviews the ALJ's factual findings under the substantial
evidence standard. 25 The Board reviews the ALJ's conclusions of law de novo.26 We liberally
construe prose pleadings.27

20

Id. at 15.

21

Id. at 7, 16 (citing Tr. at 752-53).

22

Id. at 1.

23

See 29 C.F.R. § 24.110(a).

24

Secretary's Order 2-2012 (Delegation of Authority and Assignment of Responsibility to the
Administrative Review Board), 77 Fed. Reg. 69,378 (Nov. 16, 2012); 29 C.F.R. § 1979.110.
25

29 C.F.R. § 24.llO(b).

26

5 U.S.C.A. § 557(b).

27

Droog v. Ingersoll-Rand Hussman, ARB No. 11-075, AU No. 2011-CER-001, slip op. at 3
(ARB Sept. 13, 2012).

12.677

App. 54

Case: 19-60561
Document:
00515284595
Page: 54
Case: 19-60561
RESTRICTED
Document:
00515299842
Page:Date
54 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595
6

DISCUSSION

Page: 54

Date Filed: 01/24/2020

28

The AU committed legal error in concluding that Wright did not engage in protected
activity because he did not explicitly reference the SOWA or FWPCA.. Based on the record
evidence, we hold that if Wright had a reasonable belief that he was furthering the purposes of
the acts when he e-mailed his supervisor to protest that he was being restricted from performing
his job to protect drinking water and in complaints he made in a hostile work environment
complaint about lack of sufficient oversight of operators to protect fresh water, then he engaged
in protected activity. As the AU did not assess whether Wright had a reasonable belief when he
engaged in the activities he alleges were protected, we remand for further fact finding and
consideration.
The purpose of the SDWA "is to assure that water supply systems serving the public
meet minimum national standards for protection of public health."29 In addition to "establishing
overall minimum drinking water protection standards for the nation," the statute provides "for
delegation of specific regulation and enforcement to states," including state primary
enforcement of underground injection processes to protect sources of drinking water. 30
Respondent is a state agency with administration and enforcement obligations under the
31
SDWA.
The Congressional declaration of goals and policy for the FWPCA provides that "[t]he
objective of this chapter is to restore and maintain the chemical, physical, and biological
integrity of the Nation's waters.',32 "Respondent ... serves as the certifying agency for federal
permits under sections 401 and 404 of the ... FWPCA, for projects associated with oil and gas
exploration and production activities. " 33
The SDWA and the FWPCA contain anti-retaliation provisions prohibiting employers
from discriminating against employees who have participated in activities protected by the
statutes. Specifically, the SDWA prohibits employers from discriminating against an employee
who "assisted or participated ... in any other action to carry out the purposes of this subchapter,"
and the FWPCA prohibits employers from discriminating against an employee who "filed,
28

Neither party has appealed the ALJ's decision regarding Respondent's sovereign immunity
challenge.
29

H.R. REP. 93-1185, 1974 U.S.C.C.A.N. 6454, 1974 WL 11641, 6454 P.L. 93-523; see also
Nat. Res. Def. Council, Inc. v. E.PA., 812 F.2d 721, 723 (D.C. Cir. 1987).
30

HR], Inc. v. E.P.A., 198 F.3d 1224, 1232 (10th Cir. 2000), as amended on denial of reh'g and
reh'g en bane (Mar. 30, 2000) (citing 42 U.S.C. § 300h).

31

D. & 0. at 6.

32

33 U.S.C.A. § 1251.

33

D. & 0. at 6 (citing Tr. at 211-213; 40 C.F.R. § 147.2201).

12.679

\

App. 55

Case: 19-60561
Document:
00515284595
Page: 55
Case: 19-60561
RESTRICTED
Document:
00515299842
Page:Date
55 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595
7

Page: 55

Date Filed: 01/24/2020

instituted, or caused to be filed or instituted any proceeding under this chapter or has testified or
is about to testify in any proceeding resulting from the administration or enforcement of the
Under the environmental whistleblower statutes, for a
provisions of this chapter."34
complainant's acts to be protected, the complainant must show that he reasonably believed that
he raised environmental or public health and safety concerns governed by or in furtherance of the
relevant act(s). 35
To prevail on a whistleblower complaint, a complainant must establish by a
preponderance of the evidence "that the protected activity caused or was a motivating factor in
36
the adverse action alleged in the complaint." If a complainant makes this showing, '"relief may
not be ordered if the respondent demonstrates by a preponderance of the evidence that it would
have taken the same adverse action in the absence of the protected activity."37
In his complaint, Wright alleged that he complained to management about being asked to
approve completion reports and certify that operators had complied with rules protecting fresh
38
water when the operators had not complied. His specific allegations of protected activity are
the following: 1) he requested that a consultant for an operator, Kathryn Jaroszewicz, send him
information using the January form on May 31, 2013, to obtain sufficient information needed to
protect underground sources of drinking water to further the SDWA; 2) he e-mailed Teague on
June 5, 2013, protesting that the Railroad Commission was restricting him from doing his job to
protect drinking water in denying his request to ask for the old form; and 3) he alleged numerous
instances of protected activity within a hostile work environment complaint he had submitted
internally on April 4, 2013, about protecting drinking water. 39
Regarding the first two numbered allegations above, the AU found that Wright had not
engaged in protected activity because there was no evidence that Wright ever referred
specifically to the two statutes in this case, ever notified or accused the Railroad Commission of
any violations of these specific statutes, ever refused to engage in any practice made unlawful by
the statutes, or filed or testified before Congress or in any other proceedings regarding any
provision of the statutes.40 The AU noted that "Complainant ... appears to be a person who
34

42 U.S.C.A. 300j-9(i) and 33 U.S.C.A. § 1367.

35

Williams v. Dallas lndep. Sch. Dist., ARB No. 12-024, AU No. 2008-TSC-001 (ARB Dec.
28, 2012).

36

29 C.F.R. § 24.109(b)(2).

37

Id.

38

D. & 0. at 2.

39

Id. at 11, 12, 20; RX 23 at 3, 1; CX 56-60 (this exhibit appears to be included also within RX
22, but with comments by Teague; Peter Fisher, the Railroad Commission's Deputy District Director;

and Fernandez).

40
12.67 Id. at 20.

\

App. 56

Case: 19-60561
Document:
00515284595
Page: 56
Case: 19-60561
RESTRICTED
Document:
00515299842
Page:Date
56 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595
8

Page: 56

Date Filed: 01/24/2020

prides himself on attention to detail." He thus concluded that "[i]f Complainant was concerned
about Respondent's alleged disregard of the SOWA or FWPCA, then it is only logical that he
would have referred to such in his correspondence with Respondent, which he failed to do.
Accordingly, I find no credible evidence of protected activity."4
The ALJ's restrictive view of protected activity is not legally sustainable. A complainant
is not required to explicitly mention the statutes by name or to otherwise allege a violation of the
statute to engage in activity the SDWA protects. The language of the SDWA simply prohibits
employers from discriminating against employees who have "participated in activities to carry
42
out the purposes" of the act. This is broad language, some of the broadest of any of the statutes
the ARB has the responsibility to adjudicate. While the FWPCA's language is not as broad,
neither the SDWA nor the FWPCA's language requires a complainant to cite the statute
43
4
specifically or to report a "violation.',4 And under both statutes, a "proceeding" does not have
to be a formal proceeding.45 Thus, we vacate the ALJ's legal conclusion regarding protected
activity because the AI.J did not conduct the proper legal analysis and we conduct our own

41

Id. at 21.

42

42 U.S.C.A. 300j-9(i).

43

See, e.g., DeKalb Cty. v. US. Dep 't of Labor, 812 F.3d 1015, 1021 (11th Cir. 2016). In
DeKalb Cty., the Eleventh Circuit affirmed the ARB's conclusion that complainants-compliance
experts-engaged in protected activity under the FWPCA where they sought records of restaurant
sewer spills, suspected the County was hiding information about sewer spills, and informed
"coworkers and supervisors that 'the County could get in trouble' with the State as a result," in
addition to confronting a supervisor about ongoing compliance problems. The supervisor "viewed
their questions as ' insubordination' and informed them they were being 'too thorough or scientific."'
id. at 1018. The court's opinion does not reflect that complainants ever referenced the specific
statute at issue in holding that they engaged in protected activity.
44

While there is some ARB caselaw in environmental whistleblower cases that suggests that a
complainant must report a violation of the underlying statute, or a threat to the environment, it is the
language of the statute that prevails. As neither of these statutes requires a violation to be reported
for there to be protected activity, it is not a requirement. Cf Williams, ARB No. 12-024; Hall v. U.S.
Army Dugway Proving Ground, ARB Nos. 02-108, 03-013; ALJ No. 1997-SDW-005 (ARB Dec. 30,
2004) ("An employee engages in protected activity when he reports actions that he reasonably
believes constitute environmental hazards, irrespective of whether it is ultimately determined that the
employer's actions violate a particular environmental statute.") (citation omitted)); Abu-Hjeli v.
Potomac Elec. Power Co., No. 1989-WPC-001, slip op. at 6-7 (Sec'y Sept. 24, 1993).
45

Passaic Valley Sewerage Comm 'rs v. U.S. Dep't ofLabor, 992 F.2d 474, 478 (3d Cir. 1993)
(affirming ARB's interpretation of FWPCA and holding that the "statute's purpose and legislative
history allow, and even necessitate, extension of the term 'proceeding' to intracorporate
complaints."); DeKalb Cty., 812 F.3d at 1020 ("The Secretary has interpreted 'proceeding' to shield
from retaliation employees who make 'informal' or 'internal' complaints to supervisors and
coworkers, even if those complaints ultimately lack merit.") (citations omitted)).

12.694

App. 57

Case: 19-60561
Document:
00515284595
Page: 57
Case: 19-60561
RESTRICTED
Document:
00515299842
Page:Date
57 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595
9

Page: 57

Date Filed: 01/24/2020

analysis based on the facts the AU found and under the definitions of protected activity the
statutes express.
The AU found that not only was it the Railroad Commission's responsibility to regulate
certain programs under the FWPCA and the SOWA, it was Wright's responsibility to work with
the regulated industry, the oil industry, to secure compliance by oil and gas operators with those
same statutes and any other rules for which the Railroad Commission was responsible.
Regardless of whether asking for the older version of the form itself was protected activity,46
Wright's protest in his e-mails to Teague that he should have been able to ask for the additional
information the older form required, was protected by the statutes. Wright e-mailed Teague and
told him that he asked for the old form because the new form did not provide enough information
and operators had "made errors in the past that did not comply with the regulations intending to
protect fresh water."47 He wanted the information from the old form that apparently would
unearth any errors and thereby ensure that operators were complying with the rules, rather than
simply trusting that there were none. Wright also told Teague that it appeared to him that
Teague was telling him that he could not request infonnation from the operators about whether
they were planning on using sufficient amounts of cement to comply with the rules. This is
clearly a protest that he is being restricted from doing his job, of which one of his primary duties
was to secure compliance by operators with the statutes at issue in this case. Wright's e-mail to
Teague was in furtherance of the SOWA and therefore constitutes protected activity, if Wright
reasonably believed that he was doing so. Wright's complaint to his supervisor would also
constitute protected activity under the FWPCA, as it was a "proceeding resulting from the
administration or enforcement of the" FWPCA, again, if Wright had the reasonable belief that he
was raising environmental or public health and safety concems.48
Wright's hostile work environment complaint (CX 56-60) also contained potential
protected activity, subject to the same caveat regarding a reasonable belief.49 Wright's
46

We cannot determine whether use of the old form versus the new form is protected activity
without additional fact finding. Therefore, on remand, the ALT should reanalyze whether use of the
old form was protected activity, taking into account the broad purview of protected activity.
47

RX 23 at 1.

48

33 U.S.C.A. § 1367.

49

The ALl apparently did not consider the hostile work environment claim as protected
activity. The record on this is confusing, but there was some discussion during the hearing about the
claim, as an adverse action, being excluded as time barred. While CX 56-60 was not admitted as an
exhibit at the hearing, the AU cited it as a part of his fact finding in his decision and order. D. & 0.
at 9. The ALl either believed that he admitted the exhibit or otherwise mistakenly excluded it, as it
contains allegations of protected activity, which cannot be time barred. In any event, on remand, the
ALl should either admit or make clear that he already admitted this exhibit into the record.
Excluding it would be an abuse of discretion. Shactman v. Helicopters, Inc., ARB No. 11-049, AL.J
No. 2010-AIR-004, slip op. at 3 (ARB Jan. 25, 2013) (noting that ALJ's evidentiary rulings are
reviewed under an abuse of discretion standard).

12.696

\

App. 58

Case: 19-60561
Document:
00515284595
Page: 58
Case: 19-60561
RESTRICTED
Document:
00515299842
Page:Date
58 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595
10

Page: 58

Date Filed: 01/24/2020

statements within this exhibit fall squarely into the category of protected activity under both the
SDWA and the FWPCA. These statements include, but are not limited to, the following: reports
that the Railroad Commission's District Director and Assistant Director were willing to ignore
their responsibility to require operators to comply with the rules; they did not require operators to
bring their wells into compliance on several occasions; and they demonstrated a lack of c~ncern
for protected fresh water when they gave an approval to an operator on September 3, 2012.'° For
example, he noted that Fisher "approved the remedial squeezing of the surface casing of a new
well in a fashion that would not properly isolate the fresh water reservoirs"; that Teague's
approvals to an operator "demonstrated a misunderstanding of well configurations and a lack of
concern for protecting fresh water"; and that Teague "was willing to approve completion reports
without them being in compliance the rules."51
We conclude that Wright's June 5, 2013 e-mail to Teague (protesting that the Railroad
Commission was restricting him from doing his job to protect drinking water in denying his
request to require the use of the old form) and a11egations within Wright's hostile work
environment complaint are protected activities if Wright reasonably believed he was raising
environmental or public health and safety concerns when he acted in each instance. Wright's
insistence on using the old form to request information may also constitute protected activity,
which the AU will decide on remand. Because determinations about whether Wright had a
reasonable belief in each instance requires fact findings that are not within the Board's purview
to make, we remand the case to the AU to make those findings. 52
Further, we make clear that the Board is not making any directives or suggestions to the
AU with respect to any other aspect of this case, and leaves it to the AU to determine issues of

50

While the FWPCA's language is less broad than the SDWA's regarding protected activity,
Wright's complaint about management's failure to require operators to comply with rules intended to
protect underground water sources falls within the FWPCA's prohibition against discrimination by
employees who file proceedings resulting from the administration or enforcement of the provisions
of the FWPCA. A "proceeding" includes an initial internal or external statement or complaint of an
employee relating to the administration or enforcement of the provisions of the FWPCA. AbdurRahman v. DeKalb Cty., ARB Nos. 08-003, 10-074; AU Nos. 2006-WPC-002, 2006-WPC-003; slip
op. at 7-8 (ARB May 18, 2010) (citation omitted), ajf'd sub nom, DeKalb Cty. v. U.S. Dep 't of
Labor, 812 F.3d 1015 (11th Cir. 2016).
51

CX56-60.

52

See Lee v. Parker-Hannifin Corp., ARB No. 10-021, AU No. 2009-SWD~003, slip op. at 12
(ARB Feb. 29, 2012) ("[B]ecause a determination of the reasonableness of his belief requires
findings of fact that are not within the ARB's purview to make, we remand this case to the ALJ to
make those findings and for such further proceedings as are warranted."); Williams, ARB No. 12024, slip op. at 14 ("'The fact question nevertheless remains as to whether Williams subjectively
believed he was raising environmental concerns. The AU did not resolve this issue, and we cannot
resolve it on the record before us.").
12.69

App. 59

Case: 19-60561
Document:
00515284595
Page: 59
Case: 19-60561
RESTRICTED
Document:
00515299842
Page:Date
59 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595
11

Page: 59

Date Filed: 01/24/2020

53

causation and the affirmative defense on remand. Finally, if the AlJ finds that Wright engaged
in protected activity on Apri1 4, May 31, and June 5, 2013, temporal proximity to the June 20
termination and to the June 6 recommendation of further disciplinary action, supports an
. f erence o f causat10n.
. 54
m

CONCLUSION

The AU found that Wright failed to prove that any protected activity played any role in
the termination of his employment. We VACATE the ALJ's decision regarding protected
activity. We AFFIRM the ALJ's finding that there was adverse action. We VACATE the
ALJ's decision regarding the issues of causation and the affirmative defense because he must
reanalyze these issues in light of the expansive definition of protected activity. Finally, we
REMAND the Al.J's D. & 0. for further consideration. On remand, with regard to exhibits, the
AU shall clarify with specificity which exhibits were admitted and which rejected at the hearing
and admit CX 56-60, if not already admitted. All of Wright's motions to strike exhibits are

53

We recognize that the AU also analyzed in his opinion whether the alleged protected activity
was a motivating factor in Complainant's discharge and whether Respondent would have terminated
Complainant's employment in the absence of any protected activity. A remand is still necessary,
however, because this analysis is incomplete without recognition of the scope and nature of the
protected activity. The ARB has previously noted that "strained relations between regulators and
producers are to be expected." White v. Osage Tribal Council, ARB No. 96-137, AU No. 1995SDW-001, slip op. at 5 (ARB Aug. 8, 1997). We have also cautioned that the line between
insubordination and whistleblowing may be thin or even nonexistent. See, e.g., Kenneway v.
Matlack, Inc., No. 1988-STA-020, at 3 (Sec'y June 15, 1989) (noting that intemperate language,
impulsive behavior, and even alleged insubordination are often associated with protected activity).
We do not prejudge the outcome of this case, but remand to ensure that the analysis separates
protected activity from insubordination.
54

Forrest v. Smart Transp. Servs. Inc., ARB No. 08-111, AU No. 2007-STA-009, slip op. at 5,
n.6 (ARB Sept. 21, 2010) (While not necessarily dispositive, "temporal proximity may support an
inference of retaliation.").
12.698

App. 60

Case: 19-60561
Document:
00515284595
Page: 60
Case: 19-60561
RESTRICTED
Document:
00515299842
Page:Date
60 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595
12

Page: 60

Date Filed: 01/24/2020

denied- the AlJ did not abuse his discretion in admitting the exhibits that Wright now objects
to; further, Wright did not object to thei r admission at the hearing.

SO ORDERED.

7

~~

T~.GOLDMAN
Administrative Appeals Judge

p<E.t f~·
Chief Administrative Appeals Judge

Administrative Appeals Judge

12.69

App. 61

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 22
Page:Date
22 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

U.S. Department of Labor

Page: 22

Date Filed: 01/24/2020

Office of Administrative Law Judges
5100 Village Walk, Suite 200
Covington, LA 70433
(985) 809-5173
{985) 893-7351 (Fax)

Issue Date: 19 May 2016
CASE NO.: 2015-SDW-1

In the Matter of:
FREDERICK B. WRIGHT,
Complainant

v.
RAILROAD C01V1MMISSION OF TEXAS
Respondent
Appearances:
Frederick B. Wright,pro se
For Complainant
lVfichael J. Deponte, Esq.
Julie C. Tower, Esq.
Jackson Lewis, P:c. ·
For Respondent
Before:

CLElYIENT~KENNINGTON

Administrative Law Judge

DECISION AND ORDER DISMISSING COMPLAINT
Complainant brought this case under the employee protection (whistleblower) provisions
of the Safe Drinking Water Act (SDWA), 42 U.S.C. § 300j-9(i), and the Federal Water Pollution
Control Act, (FWPC) 33 U.S.C. 1367, and the implementing regulations at 29 C.F. R. Part 24
based upon Complainant's assertion that Respondent terminated him on June 20, 2013 due to his
protected activities under these statutes. For the reasons set forth below, I find that this case
must be dismissed, because Complainant did not establish by a preponderance of evidence that
he engaged in protected activity which was a motivating factor in Respondent's decision to
terminate him. Therefore, Complainant has failed to establish an action cognizable under either
act. Further, even if could establish such a connection, Respondent established that it would
have term.mated him for a legitimate, non-discriminatory reason absent any alleged protected

activity.

12.4

App. 62

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 23
Page:Date
23 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 23

Date Filed: 01/24/2020

PROCED1JRALBACKGROUND 1
,'

On July 19, 2013, Complainant filed a complaint against Respondent with OSHA In his
complaint, Complainant alleged that Respondent terminated him on June 20, 2013 because he
complain~d to management about being asked tG approve completion reports .a nd certifying that
oil and gas operators had complied with rules pertaining to the protection of fresh water when in
fact these operators had not complied. On April 9, 2015., OSHA issued its findings stating it
found no cause to believe that Respondent violated either the SDWA or FWPCA. On May 6,
2015, Complainant timely appealed OSHA's finding. Pursuant to Complainant's appeal, a
hearing was held before the undersigned in Houston, Texas on December 9 and 10, 2015.
Sovereign Immunity
Prior to tp.e hea..ring, ~espondent .fil~d~a m0tiop. fox SU!Il.Ip.a,ry ju~gment op. November 16,
2015. Respondent contends I lack subject matter jurisdiction in this matter since it is an arm of
the State of Texas and administrative proceedings brought against states by private citizens are
barred by the eleventh amendment. Specifically, Respondent maintains Congress has not waived
state sovereign immunity with respect to claims brought under the whistleblower provisions of
the Safe Drinking Water Act and Federal Water Pollution Control Act.
·
On the other hand, Complainant contends Respondent has waived its sovereign immunity
to whistleblower complaints for violations of federal and state laws. Specifically, Complainant
argues Respondent acknowledged the Court's subject matter jurisdiction by litigating the merits
of the case before and after filing its answer to his complaint.
Correction of Record
At the hearing, Complainant testified, called two supervisory witnesses (Ramon
Fernandez and Charles Teague), and identified 28 exhibits, of which I admitted 22. In addition
to questioning Fernandez and Teague, Respondent called two management witnesses, Peter
Fisher and Mark Bogan, and introduced 35 exhibits. Both parties filed briefs. Before receipt of
briefs, Complainant filed a motion to correct the record in 71 places. Respondent agreed with
corrections 1-6, 20-21, 23-25, 33, 36-37, 42, 44-45, 48, 50, 58, 59-63, 65-69, and 71.
- -- R~c:p<mde.n:t-9~Gt.&d-t-0-Gemplam~s-0t.l:i.er-f>.!:epe~nges-as-.substaa.tive ancl.-n01:-involving grammatical, typographical, or spelling changes appropriate for such a motion. After reviewing
the record, I agree with Respondent,s objections, except for objections to numbers 12, 16, 18,
and 30-31 referring to centralizers "bow" out not "bore" out (Tr. 29:1); "non-critical" not
"nautical" cement (Tr.51:2); "re-cement'' rather than "resubmit" (Tr.60:10); Complainant asking
quest/.ons and not the undersigned speaking (Tr. 121:19-20); and Complainant, rather than the
undersigned, commenting on Complainant's conduct. (Tr.125:7-10).
Also before receipt of briefs, Complainant filed a 16 page document entitled
"Complainant's Notice of Exhibits, Objections, Fatal Errors and/or Fatal Variances»
(Complainant's Notice") to be included with his post-hearing brief. Complainant's Notice
1

References to the record are as follows: Transcript Tr. _j Complainant's Exhibits (listed by bat~ numbers): CX-

_j Respondent's exhibits: RX-_j Stipulated definitions: STD; Stipulated facts: STF.

12.

2

App. 63

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 24
Page:Date
24 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 24

Date Filed: 01/24/2020

erroneously contends the undersigned accepted Complainant's exhibits 1-78 to Complainant's
First Amended Complaint and exhibits 89-223 to Complainant's Motion for Summary or Partial
Summary Decision. Complainant's Notice also objects to testimony at various pages of the
record ·as being presented in surprise and in violation of "28 FRCP 37(a)(4)" as hearsay.2
Finally, Complainant's Notice cites variances with Respondent's pleadings ·and answers to
interrogatories.
Complainant also seeks to have the undersigned categorize the testimony of Fernandez
relating to complaints he received about Complainant representing Fernandez;s state of mind
rather than factual incidents. As for Bogan's te.stimony, Complainant seeks to have me treat
complaints about him as nothing more than disagreements about technical aspects of his work
Having reviewed the file, the undersigned finds no merit to any of these arguments.

as

a

Compiainant also requests deterri:rination by-the· undersigned ~tliat ·advdrse actions are
only limited to the 30 day time bar as opposed to protected activity which is not so limited. That
request is discussed later in legal analysis portion of this decision. To the extent Complainant
seek.s to exclude the adverse testimony of Respondent's management officials regarding reports
they received about Complainant's rude and unprofessional treatment of staff and operators as
hearsay, the undersigned finds no basis for such a request even if such reports are hearsay (which
they are not). 5 U.S.C. §§556-557.
Technical Terms

Due to the use of multiple technical terms in this proceeding, the undersigned asked the
parties to submit a list of defined technical and industrial terms applicable to this case which
appears below:
1. Alternate Surface Casing Request- a request for an exception to the surface casing
requirements in 16 TAC§ 3.13 as allowed by§ 3.13(b)(2)(G).
2. Alternate Surface Casing Request Form- the form used by District 3 of the
Commission's Oil and Gas Division on which an operator requests an exception to
the _surface casing requirements in 16 TAC§ 3.13 .
. ·.. - .·.,.
" .
3. Annulus- the space between two concentric objects such as between the wellbore and
casing or between casing and tubing where liquid can flow. 3
-

• . 't'

-

• • • • ·. ..

4. Annular Disposal- the practice of pumping drilling waste down the annulus between
the surface casing and the next size casing string.

2

Complainant apparently refers to Fed. Rule of Civ. Pro. 37, which pertains to the failure to make disclosures or to
cooperate in discovery and sanctions. Rule 37 does not apply in this case.

3

Although the parties stipulations do not include definitions for the following terms, my review of the records
indicates Respondent provided these definitions in its prehearing exchange on November 16, 2015 without
objection from Complainant: aquifer, reservoir, and surface casing.
12.

3

App. 64

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 25
Page:Date
25 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 25

Date Filed: 01/24/2020

5. Aquifer- a geologic formation, group of formations, or part of a formation that is
capable of yielding a significant apiount of water to a well or spring.
6. Casing String- an assembled length of steel pipe configured to suit a specific well
bore. The sections of pipe connected and lowered into a wellbore and then cemented
in place with the top of the pipe coming into the casing head.
7. BUQW (Base of Usable Quality of Water)- the depth below ground surface, above
which ground water has generally less than 3,000 mg/L total dissolved solids, but
may include higher levels of total dissolved solids if identified as currently being used
or identified by the Texas Water Development Board as a source of water for
desalination.
8. Casll}g head-:- the device at. t.1.~ su:eface t~pninus of :wells tq which all casings are
connected and which facilitates pumping between any two strings of casing.
9. Circulating cement- this term pertains to the conditions in which cement is placed; it
is not a type of cement To circulate cement means to pump enough cement into a
well bore and up through the annular space between the casing and the earth (or the
casing and the next larger casing and string) such that some quantity of cement is
returned (i.e., circulated) back to the ground surface.
10. Conductor Casing- the pipe running into wells, instead of or in addition to drive pipe,
to prevent the collapse of soil or water into the well. Conductor casing typically runs
deeper than drive pipe if the drive pipe is also used.
11. Completion report- a set of documents required to be filed with the Railroad
Commission pursuant to 16 TAC§ 3.16. including form W-2 or G-1, as applicable.
12. Centralizers- devices placed on casing to keep the casing centralized with the
wellbore, facilitating efficient placement of cement sheath around the casing and
between the .casing and the wellbore.
··-,-13.. , D-0- the inspeetion-1"ep01=t completed t0 describe. an·inspecti.Dn.14. Fresh water- water having bacteriological, physical, and chemical properties which
make it suitable and :feasible for beneficial use for any lawful purpose as defined
TWC, Title 2. Subtitle D, Chapter 27, Subchapter A, Sec. 27.002(8).
15. Freshwater Strata- geologic formation(s) or portion(s) thereof containing fresh
groundwater
16. Groundwater- water percolating below the surface of the earth.
17. Intermediate Casing- a casing string that is generally set in place after the surface
casing and before the production casing. The intermediate casing string provides

12.

4

App. 65

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 26
Page:Date
26 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 26

Date Filed: 01/24/2020

protection against caving of weak or abnormally pressured formations and enables the
use of drilling fluids of different density necessary for the control of lower
formations.
18. Pollution- the alteration of the physical, thermal, chemical, or biological quality of, or
the contamination of, water that renders the water harmful, detrimental, or injurious
to humans, animals, vegetation, or property, or to the public health, safety or welfare
or impairs the usefulness of the public enjoyment of the water for any reasonable
purpose.
19. Production Casing- a casing string that is set across the reservoir interval and within
which the primary completion components are installed.

2CY: Remedial Cementing- a-cerrientihg opefatiou·petformedto·i-ep~ii pru±iaiy cementing

problems or to treat conditions arising after the wellbore has been constructed. The
two main categories of cementing include squeeze cementing and the placement of
cements plugs.

21. Reservoir- a natural or artificially created subsurface sedimentary stratum, formation,
aquifer, cavity, void, or coal seam from which hydrocarbons may be produced.
22. Shoe- the bottom of the casing string including the cement around it, or the
equipill:ent run at the bottom of the casing string.
23. Surface Casing- the outer casing cemented in the upper portion of the well bore to
protect fresh water formations from contamination. Surface Casing also refers to the
well pipe inserted as a lining nearest to the surface of the ground to protect the well
from near-surface courses of contamination.
24. USDW ("Underground Sources of Drinking Water")- an aquifer or its portion which
is not an exempt aquifer as defined in 40 CFR section 146.4 and which (A) supplies
any public water system; or (B) contains a sufficient quantity of ground water to
supply a public water system; (i) currently supplies drinking water for human
c·onsumption; ·-or· (ii) con.tams t'ewbr than· ro,ooo··roi'iiigrams ·per-·liter '{mg/1) total
dissolved solids.
25. UQW (Usable Quality Water)- water containing 3,000 parts per million (ppm) total
dissolved solids or less.
26. Wellbore-the hole drilled into the ground.
27. Well Completion- a generic term used to describe the assembly of downhole tubulars
and equipment required to enable safe and efficient production from an oil or gas
well.

12.
5

App. 66

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 27
Page:Date
27 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 27

Date Filed: 01/24/2020

28. Cement with 24-br compressive strength of at least 250 psi-SWR 13(b)(l)(D)
"Cement Quality," provides as follows: An operator may use cement with volume
extenders above the zone of critical cement to cement the casing from that point to
the ground surface, but in no case shall the cement have a compressive strength of
less than I 00 psi at the time of drill out nor less than 250 psi 24 hours after being
placed.
29. Cement with 72-br compressive strength of at least 1,200 psi-SWR 13(b)(l)(D),
"Cement Quality," provides as follows: Surface casing strings must be allowed to
stand under pressure until the cement has reached a compressive strength of at least
500 psi in the zone of critical cement before drilling plug or initiating a test The
cement mixture in the zone of critical cement shall have a 72-hour compressive
stre~gtb. of '3:t least 1,200 psi.
.- .. .

.... ·- ~

.

FACTUALBACKGROUND4
Respondent is a Texas state agency responsible for the regulation of the oil and gas
industry in the state of Texas, including administration and enforcement of the underground
injection control program under the federal Safe Drinking Water Act for class 2 injection wells
associated with oil and gas exploration and production activities as well as brine mining
activities. Respondent also serves as the certifying agency for federal permits under sections 401
and 404 of the Federal Clean Water Act, formerly referred to as the Federal Water Pollution
Control Act (FWPCA), for projects associated with oil and gas exploration and production
'
activities. (Tr. 211-213;'40 CFR §147.2201).
Respondent's District 3 Director, Guy Grossman, hired Complainant on October I, 2007,
as an engineer specialist II for its Houston District 3 Office, Field Operations Section, Oil and
Gas Division. (CX-52; STF-1, 3). Prior to his employment with Respondent, Complainant
worked as a petroleum engineer for the U.'S. Bureau of Land Management, car sales manager,
and as a project engineer for Gulf Oil, Union Texas Petroleum, and Exxon. (CX-196-201). As
an engineer for Respondent, Complainant's duties included conducting surveys, making
inspections, investigating complaints, and collecting and analyzing engineering data. (RX-I).
As an engineer specialist, Complainant was assigned as a technical staff person to work with the
regulated .i:o.dustry ,~o .-seQwe.compliance by oil and gas operators with the rules and statutes
assigned to Respondent for enforcement. (RX-31; Tr. 93-95).
Regarding the alternate surface casing program which was the primary activity involved
in this proceeding, Complainant had two responsibilities: (1) to insure that the operator was
going to circulate cement to the surface and (2) to determine the number of centralizers to be
used in this process. (Tr. 219-220, 230, 231-233).

4

The factual background consists of not only the parties' stipulations but the undersigned's factual determination
of the record consisting of admitted exhibits and credibility determinations, In general, I was not impressed with
Complainant's denial. of his mistreatment of operators and refusal to work with staff personnel. Management was
very lenient with Complainant and tried to encourage him to work with, as opposed to working against,
independent contractors and fellow employees.

12.

6

App. 67

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 28
Page:Date
28 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 28

Date Filed: 01/24/2020

As of June 20, 2013, Complainant had received two promotions to engineer VI with his
last bonus effective December 1, 2012. (RX-2; 27, STF-2). Respondent terminated
Complainant on June 20, 2013, at which time he was under the supervision of District Director
Charles Teague and assistant director Peter Fisher, who both reported to Deputy Director
·
Raymond Femandez5.
At his first employee evaluation (EPE) on April 29, 2008, supervisor Gil Bujano,
Director of Respondent's Oil and Gas Division, and Guy Grossman rated Complainant as
meeting the requirements of his position. (RX-3). On his next two evaluations on October 21,
2008, and October 28, 2009, Complainant received similar evaluations. (RX-4, 5).
At the next evaluation (EPE) on October 28, 2010, Complainant maintained an overall
rating of meeting the requirements of his position on average but was told that he needed to
improve his relations with personnel ill the office and industry who hesitated to approach him
because they perceived Complainant was unwilling to work out amenable solutions at times.
(RX-6). In reply, Complainant stated:
I am taking th.is comments option to file a complaint th.at the
District Director and the Assistant District Director are using their
official capacities to harass me, with the intent to create a hostile
work environment and adversely impact my employment
opportunities. The baseless comments in th.is EPE about my lack
of professionalism, me engaging in debates with operators, as well
as the implication that unbiased mdividuals are hesitant to
approach me, is part of the manifestation of this harassment.

In response, Guy Grossman and Raymond Fernandez stated there was no attempt to
harass or create a hostile work environment for Complainant. Rather, they were suggesting ways
Complainant could improve his performance for the betterment of Respondent. On appeal, HR
Director Mark Bogan reviewed Complainant's harassment allegations and denied any evidence
of harassment indicating th.at Houston's District Office management comments were suggestions
for work improvement. (RX-7-8).
In support· of "bis ·eva1uation· of Coniplailiant, 'Respondent ·:produced ·an· e-mai:b:from-

Douglas Storey of Fidelity Exploration & Production to Grossman dated June 15, 2010, in which
Storey complained of Complainant's arrogant manner of treating him. Complainant acted as
though he was the only mdividual who knew anything about enginee1ing or regulatory issues and
accused Storey of not properly calculating the correct number of centralizers. Complainant also
demanded Storey write a letter of apology mdicative of a lack of professionalism. (RX-17).
Raymond Fernandez retired from Respondent on August 31, 2014. Prior to his retirement, Fernandez served as
Respondent's Deputy Director of Field Operations for its Oil and Gas Division for three years. In that position, he
managed nine district offices, including Houston's District 3 Office. As Deputy Director, he had overall supervision
for 250 employees. Before his promotion to Deputy Director, he held a numerous other positions with
Respondent. As a prof essional petroleum engineer, he worked with oil and gas operators in dealing with and

5

resolving regulatory issues. (Tr. 812-92).

12.

7

App. 68

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 29
Page:Date
29 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 29

Date Filed: 01/24/2020

Storey submitted another e-mail dated April 16, 2013 indicating other instances of Complainant
arb~trarily holding up <:,ompleti.on reports. (RX-19).
On his next employee evaluation (EPE) on October 28, 2011, Complain.mt had an overall
average evaluation with suggestions of taking more field trips and working for better relations
with all operators to make "every effort to assist operators in keeping wells. on production but
also complying with the rules and regulations" and viewing violations from practical standpoint
"in addition to the straight rules and regulations.'' (RX-9).
On the next employee evaluation (EPE) of November 14, 2012, Respondent evaluated
Complainant as average but still neecling to improvement relations with operators with the goal
of providing excellent customer service and making the path to compliance quick and
uncomp!icated :while vro:rking on better rel.ations with staff as well,. (RX-16). In support of its
suggested improvement_s,. Respondent cited instances of Complainant requiring analyst Marsha
Vogel to report string depths on a completion package when she had never been required to do
so in 20 years of .regulatory reporting. (RX-13). Complainant denied causing any delays in
processing completion reports and informed Fernandez his processing of completion reports
" ... significantly exceeds the rest of the District." (CX-31).
On September 6, 2012, Complainant filed a complaint with Gil Bujano, Director of
Respondent's Oil and Gas Division, concerning the temporary assignment of Terry Papak to run
the District 3 office in the absence 9f Teague and Fisher. Complainant claimed former district
director Ron Smelley initiated this practice of appointing Papak, who was only specialist N, as
opposed to Complainant, who was a specialist VI, in order to demean Complainant. According
to ·c omplainant, he contacted Mark Bogan about this appointment and was advised it was only a
temporary appointment and should not be concerned about it Complainant disregarded Bogan's
advice and when Fisher later inade a similar appointment, Complainant again filed a formal
complaint with Bujano. (CX-32).
Rather than working with operators to resolve compliance problems, Complainant
continued to play "hard ball" with operators by refusing to help them resolve problems. For
example, operator Paul Hendershott met with Complainant on April 10, 2013 and indicated.he
had taken over some "orphan,, wells that had numerous violations. Hendershott sought
C0mplainant's-help-in--reselving:tb.ese·violations. Rather than helping Hendershott, Complainant
laughed and told him that he could come up with.more violations. Fellow employee Mark Motal
overheard the exchange and apologized for Complainant's conduct, after which Hendershott
stated he had never been so humiliated, tallced down to, and made fun of in his entire life. The
following day, Hendershott spoke with District Director Charlie Teague, who resolved
Hendershott's problems and answered his questions. (RX-12).
Besides the Hendershott incident, Respondent produced an e-mail from fellow employee
Michael Sims to Charlie Teague dated March 21, 2013, wherein Complainant, rather than
helping Sims to resolve an issue of burial of oil based mud, continued to argue with Sims, which
resulted in Sims having to seek assistance from Complainant's supervisor, Charlie Teague, and
Peter Fisher, Deputy District Director, because Complainant refused to listen to anything Sims
had fo say. (RX-14).

12.

8

App. 69

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 30
Page:Date
30 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 30

Date Filed: 01/24/2020

As a further example of Complainant's unwillingness to work with operators and a lack
of professionalism, Respondent provided an e-mail from Carla Martin of Enervest to Fernandez
dated April 12, 2013, wherein she reported submitting a new form approved by Teague for use in
a SWR 13(b)(2) request (alternative surface casing exemption request) for Strake #1 H well in
Grimes County only to be told by Complainant that she had to use an old form to get her request
approved_ In addition, she complained that Complainant had a problem working with women
and cited her experience of being interrupted by Complainant when she called to explain the
purpose of her call. (RX-18).
Complainant's refusal to work with operators was exemplified also by his dealing with
Douglas Storey of Fidelity Exploration & Production Co. which was also set forth in an e-mail
dated April 16, 2013. The email states Complainant rejected Storey's revisions to completion
package tracking no. 71248 without letting Respond~nt's proration and engineering personnel
deteritl.ine whether they were· go:i:rig' to, give Stoiey' tlie necessary allowiliice~· Upon receiving·
Complainant's response, Storey e-mailed Fernandez indicating that everything he submitted to
Complainant was rejected even for things that Complainant was incorrect on. Further, Storey
told Fernandez that if necessary he could provide tbree years of issues with Complainant. (RX19).

EVENTS LEADING TO COMPLAINANT'S DISCHARGE
Operators continued to file complaints against Complainant regarding his inability or
unwillingness to provide practical solutions to drilling problems. In December 2012, Monty L.
Mccarver, operations manager for Nabors . Completion & Production Services Company,
complained to Teague that every time they called to get a variance in, plugging operations,
Complainant came up with costly and impractical methods. In tum, Teague assigned other
personnel, including himself and Fisher, to address these pro.blems while removing Complainant.
In response, Complainant filed a formal complaint with Gil Bujano, contending his removal was
in retaliation for a previous complaint he filed against Teague and Fisher in September 2012 and
to demean him and to impair his ability to have operators comply with the rules. (CX-32-34).
On April 17, 2013, Fernandez informed Teague that Complainant had filed a complaint
alleging that District 3 management had created a hostile work environment due to their lack of
undersfaridi:hg · ot· ilie ..rules;.· regulations, and engirieerin:g · principles· asso·ciated wifu ··the.
responsibilities of a district office. In support of bis complaint, Complainant cited instances
wherein Teague approved a completion packet involving the use of partial plugs in inappropriate
situations and wherein Fisher, in consultation with Anton Motal, improperly approved the
remedial squeezing of a surface casing of a new well followed by an improper remedial
cementing of another surface casing. Complainant also asserted Teague had improperly limited
bis access to information and made other assertions which Teague denied. (CX-37-47).
Regarding Fisher, Complainant alleged he came to District 3 without a proper understanding or
regard for the rules and improperly tumed over responsibilities for reviewing completion reports
to clericals, which Fisher also denied. (CX-56-59).

12.
9

App. 70

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 31
Page:Date
31 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 31

Date Filed: 01/24/2020

On May_17, 2013, Fernandez and Bill JY.liertschm from Respondent's Austin office
travelled to the Houston District Office to conduct a Form P-112 "Performance Counseling"
attended tbis counselling session. A summary of the
session of Complainant Teague
. and Fisher
.
counseling in RX-20 stated the following:
.

.

This counselling session is -to remind you of past conversations we
have had with you regarding your performance, along with
suggested improvement that has been addressed in your earlier
EPE's. All issues that you may have regarding your work
assignments should first be brought to the attention. of your District
Director before you contact the Deputy Director of Field
Operations or the Director ofthe Oil and Gas Division. Exceptions
may be limited to those issues outlined in the Equal Employment
Opportunity section of the Employee.B:andboo~ The use of t4e
''chain of command" has been brought to your attention in the past
and you are reminded that you are expected to follow these
instructions.
Unsolicited complaints continue to be received regarding your
relationship with operators. Tbis continues to occur despite our
efforts to help you with your work relationships. Operators report
that you are difficult to work.with, you exhibit rude behavior, and
you are condescending in your dealings with them, and that you
have resorted to "name calling". Operators complain that you are
unreasonable and do not attempt to offer solutions to bring them
into compliance with Commission rules. The Commission expects
you to behave in a professional manner with Commission staff and
industry representatives. ·
Your work assignment does not include any management duties.
Yet, you continue to insert yourself into managing co-workers
when that is clearly not your assignment. This behavior disrupts
the workplace. You are not to intervene in the management of the
district office and its staff. If you believe there is a need for your
.. ..inv..olv~.me~t,..you. must contaxt the District Director or Assistant
District Director.
·
A great deal of time has been consumed by management at the
district office and in Austin :in dealing with your issues.
Improvement in your behavior is required. Failure to do so may
result in :further disciplinary action up to and including termination
ofyour employment with this agency.

In response, Complainant appealed by asking for specific incidents supporting the above
evaluation, claiming he had not been provided with such information in the past. (RX-20, p. 2).
On May 23, 2013, Gil. Bujano replied, indicating Complainant's response demonstrated
resistance to supervisor guidance, which if not corrected could lead to bis termination. . (RX-24).
12.

10

App. 71

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 32
Page:Date
32 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 32

Date Filed: 01/24/2020

On May 31, 2013, Complainant informed Kathryn Jaroszewicz, a consultant with :tv.riller
Consulting Inc. who had applied for an alternate surface casing program and utilized a new form
approved by Teague in January 2013 (which did not require the number of centralizers to be
listed for the BUQW on the second string when a short casing is run and did not address the
issue of whether the bottom 20% of the surface casing was going to be cemented with critical
cement), that she needed to use an older form which was attached and list the correct number of
centralizers. 6 Ms. Jaroszewicz stated she would supply the requested information but was
confused as to the correct form, new or old (which required more information), to be used. (STF6-8). When Teague learned of Complainant's treatment of Ms. Jaroszewicz, he informed her she
did not have to fill out another form. Rather, she could e-mail or phone Complainant and give
him the number of centralizers needed to fulfill the requirements of Rule 13 whereupon
Complainant could alter the form she submitted., initial the alteration, and approve it. (RX-25).
On June 4, 2013, Teague e::mailetl'Complainant and toid lrim.'fue new ·rorm contained
enough information to approve Ms. Jaroszewicz's request regarding the issue oftb.e sufficiency
of cement addressed by the question of whether the operator planned on circulating cement to the
surface on all casing strings protecting usable-quality water. Teague then asked Complainant if
he had approved her request as Teague had informed her. (RX-23).
On the following day, Complainant e-mailed Teague, telling him that the new form did
not address all issues raised by SvVR 13(b)(2)(F), unless Teague was re-interpreting SWR
13(b)(2)(F) to eliminate the requirement that centralizers be run from BUQW to the surface with
the new form by not asking for the centralizers that had been required from the BUQW on the
second string when a sh01t surface casing was run. Further, SWR 13 requires the bottom 20%
of the surface casing be cemented with critical cement which the new form did not address or
require the operator to provide the data to verify. Complainant then stated that the RCC's failure
to review the data that operators had been submitting for the past five years amounted to «gross
negligence" since operators made errors in the past that did not comply with the regulations
intended to protect fresh water.
Complainant then stated:

If you are informing roe that it isn't my job to conduct the RCC's
due- diligence· revi~w of these . applications and/ot that' you're
revising these criteria, I will proceed accordingly. Your e-mail
below appears to indicate your position on cement; however I will
hold the application for your interpretation of the centralizers issue
or the operator's response.
(RX-23, p.1).

6

In January of 2013, Teague approved use of an Alternate Surface Casing Program form (January ASCF) in District
3. In a February 5, 2013 e-mail, Teague requested comments from District 3 technical staff on changing the
January ASCFform to a form he had used in other districts (February ASCF). On February 6, 2013, Complainant
advised Teague he would have to get additional information from operators to review their alternate surface
requests if Teague adopted the February ASCF form, which he did. {STF3-5).
12.4

11

App. 72

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 33
Page:Date
33 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 33

Date Filed: 01/24/2020

On June 6, 2013, Teague, in an e-mail to Bogan and Fernandez, recommended further
disciplinary action of Complainant due to Complainant's refusal to comply with the directives of
his counseling session. (RX-2~). On June 10, 2013, Ms. Jaroszewicz submitted the correct
number of centralizers for the alternate surface casing request for the we!): named "01 Army Unit
#1," which was the w~ll Ms. Jarosz.ewicz had originally .requested an alternate surface casing
form. On June 10, 2013; Complainant approved Ms. Jaroszewicz's request. (STF-8-14).
On June 20, 2013, Respondent terminated Complainant due to his refusal to comply with
Commission directives to work with management and staff and to assist operators in resolving
compliance problems, including the most recent issue of assisting an operator on how to resolve
a casing exception request Complainant initially reviewed the operator's request, found it
deficient, and directed the operator to re-file a new form with the required information. Teague
intervened and instruc,ted the operator to call or e-maj the additional information to Complainant
and instructed Complainant to ·res·o1ve fue issue by making the necessary changes to the forni and
to submit it to the operator with the corrections to avoid the need to re-file. Instead of resolving
this issue as instructed, Complainant engaged Teague in an e-mail debate and turned a simple
resolution into a complex process by accusing Teague of incorrectly reinterpreting rules,
interfering with Complainant's ability to perform his duties, and characterizing Teague's actions
as "gross negligence." In so acting, Complainant ignored prior warnings that such action could
lead to his termination.

TESTIM:ONY OF COlY.[pLAINM 'T
Complainant .t estified that he used the Alternate Surface Casing.Program Form (ASCF)
approved in January 2013 rather than the ASCF approved by Teague in February 2013, because
the January form provided more information. Further, he interpreted Fernandez's comments that
Complainant's use of January 2013 form was not required by his job to be the primary reason for
his termination even though Complainant allegedly insisted on using the January form to protect
underground sources of drinking water in :furtherance of the Safe Drinking Water Act. (Tr. 518519).
Regarding Complainant's communication on :tvfay 31, 2013 with Ms. Jaroszewicz,
Complainant advised her that the use of seven centralizers was :insufficient and that she should
fill out the.J:anuazy-ASCF form •with the correct number of centralizers. (CX-70). Previously,
she had used the February ASCF form. Complainant testified that the January ASCF form
allowed the reviewer to evaluate more detailed information regarding cement volume, the
placement of centralizers on the surface and second string of casing, and the strength of the
casing. (Tr. 522).
Twenty minutes later, Ms. Jaroszewicz responded to Complainant's email saying she
would update the information concerning the centralizers when she received it from the operator.
Further, she requested information ~s to which ASCF form to use. About 5. minutes later,
employee Marie Blanco informed Peter Fisher of the correspondence and within seven minutes
Teagu~ sent an e-mail to Ms. Jaroszewicz telling her it is not necessary to submit another form
but simply to e-mail or phone Complainant and advise of the number of centralizers. to fulfill the
requirement of Rule 13. On June 3, 2013, Complainant e-mailed Teague, with copies to

12.

12

App. 73

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 34
Page:Date
34 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 34

Date Filed: 01/24/2020

Fernandez and Fisher, stating it appeared that Teague was telling him that he could no longer
request information from the operators regarding whether they were planning on using sufficient
amounts of cement to comply with the rules. (CX-168-70; Tr 524-526). On June 3 and June 7,
2013, Ms. Jaroszewicz e-mailed the operator indicating '·'They (Complainant) would not indicate
the number of centralizers needed to proceed with the application" to which the operator
indicated on June 7, 2013 that he would run at least 20. On June 10, 2013, .Ms. Jaroszewicz
relayed with th.is information to Wright, and he approved the application. (CX-186-192, 531532).
Complainant testified that his use of the January form, which requested additional
information, constituted protected activity. Further, Complainant was told by Teague that the
February form contained sufficient information to approve operators' request However,
Gomplainant disagreed with 'Teague, because the February form did not ~k for·the number of
centralizers from the base of usable. quality water"in 'the second 'strini T~ague accused
Complainant of doing a detailed analysis of alternate surface request, which was not his job, and
told Complainant he could calculate the number of required centralizers from the February form.
(Tr. 544-549). Complainant complained of being subject to a hostile work atmosphere in
February 2013 when he was assigned to bring wells into compliance. According to
Complainant, Teague stated operators accused Complainant of being unreasonable and not
offering solutions. As a result, Teague ordered him to approve completion reports and refer
them to Austin for resolution. (Tr. 591-596).
On cross examination, Complainant denied being told by his supervisors that he needed
to improve his relationships with co-workers and industry operators by not only pointing out
violations but suggesting alternative ways to achieve compliances. (RX- 9-11, 16; Tr. 634-641).
Yet, in the counselling session, he admitted being reminded of his duty to improve relations or be
terminated for failing to do so. (Tr. 648-652).
Regarding the alternate surface casing request of Ms. Jaroszewicz for "01 Army Unit
#1" (CX-146, RX-25) which she submitted on May 31, 2013 using the February form,
Complainant knew the number of centralizers (7) was more than enough for the surface casing
set at 825 feet but not enough for the base of usable quality water set at 2025 feet which had to
be protected. Rather than get on the phone and ask additional questions to determine the proper
number ari.d p1aceilien:f ofl:he centraliiers~ Complairi.ant·s ent lVIs: Jaroszewi:cz the January·form to ·
complete, although in doing so he was going beyond what his duties required. (Tr. 679-681 ).

TESTTh10 NY OF RAYMOND FERNANDEZ, CHARLES TEAGUE,
PETER FISHER, AND MARK BOGAN
Fernandez testified th.at he and Gil Bujano, Division Director, recommended to Milton
Rister, Executive Director, that Complainant be terminated for unprofessional and unacceptable
behavior with industry operators and staff, including incidents reported directly to them by
operators and outside experts who claimed that Complainant had been rude to them, called them
"stupid" and "liars," and refused to work with them in resolving problems. (Tr. 106-108, 126131). As a result of Complainant's misconduct, Respondent fell far behind in its work due to an

12.
13

App. 74

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 35
Page:Date
35 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 35

Date Filed: 01/24/2020

undersized staff and a booming industry as well as due to the delays caused by dealing with the
complaints generated.by Complainant (Tr: 134-135).
Regarding the May 31, 2013 alternate surface casing request of Ms. Jaroszewicz,
F emandez found fault with the manner in which Complainant handled the request and how
Complainant dealt with the deficiencies in this request Instead of calling the operator and
resolving the deficiencies over the phone, Complainant chose not to do as Teague had instructed
him to do in similar situations and complete the process in a few simple steps. Rather,
Complainant told Ms. J aroszewicz to fill out the older and more detailed form as opposed to the
less detail form approved in February. Teague told Ms. Jaroszewicz it was not necessary to fill
out the older and more detailed January form but simply to inform Complainant of the number of
centralizers to be used. Then, Complainant could initial the changes on the February form and
submit it for approval (assuming it correctly identifie~ the numbe:i:. to Austin for approval). It
was not necessary to provide the additional irifoiiiiation relating to cement volume as long as the ,
. operator indicated that it was going to circulate cem~nt to the surface. (Tr. 164-166). In essence,
Fernandez stated it was not the duty of the commission employee to redesign the operator's
casing program but rather to determine if the operator was going to circulate cement back to the
surface and the number of centralizers to be used. (Tr. 181-187).
Fernandez testified th.at Complainant was. terminated not for insisting on completion of
the older January alternative casing form but for the unprofessional manner in which he handled
the May 31, 2013 alternate surface casing request of Ms. Jaroszewicz which could have been
d~termfned by use of the February alternative sw;face form, initializing "tp.e correyt number on the
February form she had already used, and approving it as corrected.. Instead; _he instruct~d Ms·.
Jaroszewicz to fill out the January form, which caused unnecessary confusion and delay on Ms.
Jaroszewicz's part (Tr. 216-221, 225-227, 23i-238, 287, 288). 7 In so doing, Complainant
admittedly went outside of his instructions and demands of bis office. (Tr. 271-281). 8

In deciding to terminate Complainans Fernandez took into consideration Teague's .June
6, 2013 e-mail in which Teague stated that Complainant refused to correct the errors on the
February alternative casing form, initial the changes, and sign it. Complainant failed to inform
Ms. Jaroszewicz of what was needed for approval, and Complainant's behavior was not the
-

7

-

-

•

• • • • ---

•

--

-

•

•

-

4

-

••

•

•

••

•

•

' (

•

•

•

•

•

A copy of the new and more streamlined application for alternate surface casing pro~ram form as authorized by
District Director Teague and used by Ms. Jaroszewicz appears at RX-21. A copy of the older form that Complainant
insisted that Ms. Jaroszewicz fill out in addition to the newer form appears as RX-23, pp. 4-5. Respondent
admitted the older form required mo.re detailed information.
8

Fernandez testified about other instances of unprofessional conduct by Wright in April 2012 when Fernandez
received unsolicited complainants from regulatory analysts alleging Wright was rude, called one stupid, and was
impossible to work with. (Tr. 106, 131, 248). Fernandez also received other complaints about Wright being unable
to work with by a former employee who"had retired and was working for an outside contractor and from another
contractor accusing Wright of calling him a liar. (Tr. 107-108, 247, 313-314). Fernandez cited another instarice of
Complainant not getting along with fellow employee, Terry Papak, when he complained about an instance when
Papak was appointed to supervise the Houston office for several days. (Tr. 311-313). Former employee Doug
Storey complained to Fernandez about Complainant unduly processing his applications after leaving Respondent
and going to work for an outside contractor. (Tr. 315-316).

12.

14

App. 75

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 36
Page:Date
36 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 36

Date Filed: 01/24/2020

correct way to handle the problem. Instead, Complainant characterized Teague's efforts as
incompetent and a disregard for rules by creating a hostile work environment. In his e-mail,
Teague stated that Complainant's conduct was not professional and a manifestation of being
difficult to work with, about which he had been warned during bis counselling session on May
9
17, 2012. (CX-67; RX-20, 26; Tr. 289).
·
Teague, who retired from Respondent on December 31, 2014, and was District Director
for District 3 from May 1, 2012 to December 31, 2014, testified that he recommended additional
disciplinary action (not necessarily termination) due to Complainant's refusal to follow the
directives of his counselling session of May 21, 2013. Specifically, Complainant was directed to
behave in a professional manner with Commission staff and industry representatives and to cease
being arrogant, insolent, and insulting to .Commission managers and operators, presenting
unnecessary obstacles to getting paper work done or approval, holding up approval of requests
form 'minor . issues; issuing a vague request for information, ·telling . individuals to refile·
applications when the simple solution would have been to get on phone, and advising operators
of deficiencies. (Tr. 338-339). 10 Teague cited instances of misconduct by Complainant,
including instances where Complainant made compliance unnecessarily difficult and unpleasant,
especially the May 31, 2013 request by Ms. Jaroszewicz. (RX-34; Tr. 347-367, 369-378).
Teague testified that Complainant, rather than accepting his directive, accused him and
Respondent of gross negligence and suggested it was not his job to diligently review alternative
surface casing requests. (RX-25, p.2; Tr. 445- 450). Teague then cited Complainant's
inappropriate treatment of former employee Doug Storey .by demanding M. apology for not
allegedly calculating the correct number of centralizers, his refusal to work with Michael Simms,
Respondent's Manager of Technical Pemii"~ting, on a mud pit issue in March 2013, and his
humiliation operator Hendershott, who asked for bis help in resolving compliance issues only to
11
be met with threats of finding additional violations in April 2013. (RX-12, 14; Tr. 469-477).
9

RX-26 sets forth Fernandez's reasons for terminating Complainant, which amounted to Complainant's
unacceptable behavior with Commission staff and regulated industry personnel who had previously complained
about Complainant's refusal to work with them in resolving regulatory issues as exemplified by his t reatment of
Ms. Jaroszewicz's May 31, 2013 surface application request wherein h.e challenged Teague's directive, accused
Teague of changing criteria related to the approval process and accused Teague's action as gross negligence.
Instead of following Fernandez's admonition to improve his working relationship wi~h staff and outside contractors .
as directed in the May 21, 2013, counselling session, Wright ignored this advice knowing such conduct ,could lead
to his termination. Fernandez summarized his position in a subsequent affidavit to DOL (RX-33). Complainant also
ignored the May 31, 2013 instruction of Gil Bujano, Director of Respondent's, Oil and Gas Division to improve his
conduct or be terminated. (RX-24).
10

After the counselling session of May 23, 2013, Complainant appealed what he had been told to Gil Bujano,
Director of the Oil and Gas Division who concluded Complainant was continuing to reject the guidance of his
supervisors. In turn, he advised Complainant t hat continued rejection could result in'his termination. (RX-24).
Complainant's subsequent treatment of Ms. Jaroszewicr on May 31, 2013 led to his termination on June 21, 2013.
(RX-26-27).
11

Storey cited other examples of Complainant's lack of professionalism. On June 15, 2010, Complainant arrogantly
accused Storey of not correctly calculating the correct number of centralizers and demanded a letter apologizing
and stated it would never happen again. (RX-17). On April 16, 2013, Storey informed Fernandez of Complainant
again unreasonably demanding a letter of apology from Storey for allegedly miscalculating the number of
12.

15

App. 76

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 37
Page:Date
37 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 37

Date Filed: 01/24/2020

Fisher (currently District Director for District 3 since August 17, 2015 and formerly
Assistant Director for District 3) con.fumed the Terry Papek and Hendershott incidents. (RX11; Tr. 698-700). Fisher also testified that Complainant, in handling Ms. Jaroszewicz's May 31,
2013 alternate surface request, could have calculated the number of centralizers to be run,
informed her of that number, and then approve that request as modified without having her
complete the older form. Instead, Complainant turned a simple request into a more complex
proceeding in disregard of Respondent's policy of streamlining the approval process while
protecting ground water. (Tr. 704-709).
Bogan, the Human Resources Director for Respondent, testified that in response to
internal complaints Complainant filed against Teague and Fisher for creating a hostile work
environment, he learned that Complainant had oc~asi.onal problems_with co-workers concerning
the location of tb.errri.ostats and operators such that they·Went out of their way to avoid contact
with Complainant because they found him difficult to work with. (RX-7-8; Tr. 760-762). Bogan
testified Complainant was tenninated for not following Respondent's procedures. (Tr. 752-753).
Further, when ternrinated, Complainant did not claim he was being retaliated against for
engaging in protected activity in violation of the Federal Water Pollution Act or the Safe
Drinking Water Act. More importantly, Respondent did not terminate Complainant for engaging
in such activities. (Tr. 754-755).
DISCUSSION
A. The Eleventh Amendment & Sovereign Immunity

Respondent contends administrative proceedings brought against states by private
citizens are barred by the eleventh. amendment, unless a state has waived its immunity.
Respondent argues Congress has not abrogated state sovereign immunity with respect to claims
brought under the whistleblower provisions of the Safe Drinking Water Act and the Federal
Water Pollution Control Act. Thus, Respondent maintains Complainant's claims must be
dismissed in their entirety. (Resp. Post-Hrg. Br., pp. 12-15).
·In response, Complainant argues Respondent has waived its sovereign immunity with
__ regard to whistleblower ~9mplaints for . violations of federal and state laws. Specifically,
Complainant contends Respondent acknowledged the Courfs subject matter jurisdiction by
litigating the merits of the case before and after filing its answer to the complaint. (Comp. PostHrg. Br.,pp. 7-10).

The "whistleblower protection" provisions of 42 U.S .C. § 300j-9(i)(l) and (2) of the Safe
Drinking Water Act ("SDWA") provide in pertinent part:
(i)(l) No employer may discharge any employee or otherwise
discriminate against any employee with respect to his compensation,
terms, conditions, or privileges of employment because the
centralizers and holding up completion reports for punitive reasons. (RX-19). In essence, Complainant was refusing
to work with operat ors.

12.

16

App. 77

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 38
Page:Date
38 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 38

Date Filed: 01/24/2020

employee (or any person acting pursuant to a request of the
employee) has(A) commenced, caused to be commenced, or is about to
commence or cause to be commenced a proceeding under this
subchapter or a proceeding for the administration or enforcement
of drinking water regulations. or underground injection control
programs of a State,
(B) testified or is about to testify in any such proceeding,

(C) assisted or participated or is about to assist or participate in
such a procee~g or in any other aq!i~n to ~arry out.the ~-qryoses .
· of this subchapter. ··
· .,..
' ·· ·· ·····
· · ··
··
(i)(2) Any employee who believes that he has been discharged or
otherwise discriminated against by any person :in violation of
paragraph (1) may, within 3·0 days after such violation occurs, file
(or have any person file on his behalf) a complaint with the
Secretary of Labor... alleging such discharge or discrimination.
Upon receipt of such a complaint, the Secretary shall notify the
personal named :in the complaint of the filing of the complaint.
(emphasis added).
The SDWA defines a person as "an individual, cmporaifon, company, association,
partnership, State, municipality, or Federal Agency (and includes officers, employees, and
agents of any corporation, company, association, State, municipality, or Federal Agency." 42
U.S.C. § 300f(12). (emphasis added).
·
The "whistleblower protection» provision of 33 U.S.C. § 1367 of the Federal Water
Pollution Control Act ("FWPCA") provide in pertinent part:
(a) No persori shall·fire, or in ari.y other way discrim.in~te- against, or ·
cause to be fired or discriminated against, any employee or
authorized representative of employees by reason of the fact that
such employee or representative has filed, instituted, or caused to be
filed or instituted any proceeding under this chapter, or has testified
or is about to testify in any proceeding resulting from the
administration or enforcement of the provisions of this chapter.

.

.

( emphasis added).
The FWPCA defines a person as "an individual, corporatio~ partnership, associatio~

State, municipality, commission, or political subdivision of aState, or any interstate body."

U.S.C. § 1362(5). (emphasis added).

12.
17

App. 78

33

.

-

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 39
Page:Date
39 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 39

Date Filed: 01/24/2020

Based on a cJear reading of the statues above, I find that Respondent is not entitled to
sovereign. immunity and that subject matter jurisdiction is proper in the instant matter. The
SDWA and FWPCA wbistleblower statutes and implementing regulations.unequivocally include
a State in the definition of "person." 42 U.S.C. § 300f(l2); 33 U.S.C. § 1362(5) (emphasis
added). · Since both statutes define a State as a "person," I find Congress had the intent to
abrogate sovereign. :immunity in regards to the wbistleblowing provisions when enacting both
statutes. Thus, the undersigned has subject matter jurisdiction to decide the merits of
Complainant's claims.

In addition, the ARB has provided guidance on whether Congress has exercised its power
to abrogate sovereign immunity. When determ:inmg whether sovereign immunity exists, the
ARB has focused on.the enforcement and. remedial J?.rovisions of ,the whistleblower statute at
issue to determine if the provisions include a -governmental entity. If the enforcement and
remedial provisions include a word that is defined to include a "State, agency, or municipal
body," then the .ARB has found no sovereign immunity under the Eleventh Amendment exists.
However, if the enforcement and remedial provisions of the whistleblower statute do not include
a word defined to include a "federal, state, or local governmental agency," then the ARB has
concluded sovereign immunity exists, since Congress did not intent to abrogate sovereign
immunity for that specific whistleblower statute.

In Minthorn:e v. Commonwealth of Virgi.niq., the A;RB held that Congress unequivocally
intended the CAA's employee whistleblower protection provisi~n to _apply to t~e states. In
Minthome, the complainant alleged his emp_loyer, the Commonwealth of Virginia, violc1:ted ~he

Clean Air Act's (CAA) employee protection provision by denying him compensation for his
accrued annual leave in 2008. The administrative law judge dismissed respondent based upon
sovereign. immunity under the Eleventh Amendment. Specifically, the ALJ found Congress had
not abrogated sovereign. immunity in the CAA. Minthorne v. Commonwealth of Virgi,nia, ARB
No.09-098 (ARB July 19, 2011).

On appeal, the ARB found the CAA's inclusion of "State,, in its definition of what
constitutes a "person" indicated Congress's clear and unambiguous intent to abrogate State
sovereign immunity regarding whistleblower protection provisions. Id. In support of its finding,
the ARB cited the.Tenth Circuit's,analysis in Osage Tribal Council v. Department ofLabor, 187
F.3d 1174, 1181 (10th Cir. 1999), which addressed sovereign immunity under the Safe Drinking
Water Act's whistleblower protection provisions. Id.
However, in Mull v. Salisbury Veterans Administration Medical Center, the ARB held
sovereign. immunity is not waived under the Energy Reorganization Act (ERA), since the
definition of word "person" is not defined within the statute. Mull v. Salisbury Veterans
Administration Medical Center, ARB No. 09-107 (ARB. August 31, 2011). In particular, the
ARB found the ERA's employee protection provisions did not contain any language· that
expressed Congress's intent to waive sovereign immunity. Id. The ARB supported its
conclusion by stating the undefined term "person~' under the ERA provided a lack of clarity in
determining whether Congress abrogated sovereign immunity for ERA whistleblower suits. Id.

12.

18

App. 79

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 40
Page:Date
40 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 40

Date Filed: 01/24/2020

Applying the holdings of the two cases above, it is clear that Congress waived sovereign
immunity for whistleblowers suits under the SDWA and the FWPCA. Both statutes provide a
clear definition of the term "person," which includes a State or an agency of the State. See 42
U.S.C. § 300f(12); 33 U.S.C. § 1362(5). Upon an exam.m.ation of the enforcement and remedial
provisions of both statutes at issue, the analysis in Minthome and Osage Tribal Council applies
to this matter. By including State and an agency of the State in the definition of the term
"person" in both acts, Congress intended to waive sovereign immunity in regards to
whistleblowers suits under the SDWA and FWPCA.
Respondent also contends dismissal is proper based upon the decisions in Rhode Island
Dept. of Environmental Management, State of Rhode Island v. United States of America, et al.,
304 F.3d 31 (1st Cir. 2002) and State of Ohio Environmental Protection Agency v. United States
of America Department of Labor, 121 F. ~upp. 2d 1 ~55 (S.D. _Ohio 2000). Specifically,
Respondent contends the; holdings in Rhode Island°and ·ohio bar· ·c omplainant'·s suit against .
Respondent, unless the Secretary of Labor intervenes in the proceeding or the state waives its
immunity. Rhode Island Dept. of Environmental Management, 304 F.3d at 40. Respondent
contends dismissal is proper since neither of the exceptions has occurred. However,
Respondent's reliance on these 1:\vo cases is misguided.
Contrary to Respondent's contentions, I find the decisions in Rhode Island and Ohio do
not warrant dismissal of this case. First, both Ohio and Rhode Island involved a deferential
review of a district court's order enjoining the administrative adjudication proceedings regarding
the employees' claims. (121 F. Supp. at 1160; 304 F.3d at 31). Unlike those suits, this matter is
not a review of an injunction, but rather a de novo evidentiary hearing on the merits. Second, the
First Circuit in Rhode Island found nothing in the Solid Waste Disposal Act's whistleblower
protection provision at issue expressed an intention to abrogate the states' sovereign immunity.
(304 F.3d at 47-48). As discussed above, the employee protection provisions under the SDWA
and FWPCA do express a clear and unambiguous intent to abrogate the states' sovereign
immunity. Third, the court's holding in Ohio that a state's sovereign immunity can be defeated
if the Department of Labor elects to intervene as a party in the matter violates the pw:pose and
procedures of the SDWA and FWPCA as well as unduly prejudices a complainant whose
employer is. a state agency. (121 F. Supp. at 1167-69). An application of the Ohio court's
decision would create a double standard for employees depending on wheilier their employer is a
state or agency of a state, denying employees of a state or state agency. access to a de novo·
evidentiary hearing afforded to them by the wbistleblower statutes. Upon review of the SDWA
and FWPCA, I am doubtful that Congress intended to create different procedures based on
employer status that could potentially deprive a complainant the right to object to OSHA's
findings and request a de novo evidentiary hearing.
Therefore, Respondent's argument that dismissal of the instant matter is proper under the
doctrine of sovereign immunity fails, and this Court has subject matter jurisdiction to decide the
merits of Complainant's claim.

12.
19

App. 80

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 41
Page:Date
41 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

12.

App. 81

Page: 41

Date Filed: 01/24/2020

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 42
Page:Date
42 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 42

Date Filed: 01/24/2020

Teague knew he was referring to violation of the SDWA and the CWA when he objected to use
of the February AFCS form by bis comments.
The undersigned does not agree with Complainant's assertion, especially since
Complainant, :from the undersigned's observation of his behavior, appears to be a person who
prides himself on attention to detail. If Complainant was concerned about Respondent's alleged
disregard of the SDWA or FWPCA, then it is only logical that he would have referred to such in
his correspondence with Respondent, which he failed to do. Accordingly, I find no credible
evidence of protected activity.
Assuming for sake of argument that Complainant did engage in protected activities as
asserted (a position I do not credit), then I find that Respondent obviously knew about such
action. Further, Respondent admits fuat <;ogi.pl~~t .~ffered _adye:@e 3 ction w4,en he was
terminated. Thus,' the only remaining question to be resolved is whether Complruriant proved by
a preponderance of .evidence that the alleged protected ·activity was a motivating factor in
Complainant's discharge. To answer that question, I have looked at Complainant's entire
employment record, including his most recent evaluations. From tµese evaluations which clearly
preceded his discharge, I note a documented history of interpersonal conflicts with operators and
Respondent's own staff. Indeed, Complainant demonstrated an unwillingness to work with
operators in identifying alternative ways to become compliant such that operators went out of
their way to avoid dealing with Complainant by calling outside Complainant's schedule hours of
work. (RX- 6, 9, 16; Tr. 105-109, 631, 633-634, 640-641, 691-693, 746-747).
Teague observed Complainant's behavioral problems when he became District 3
Director. Teague found Complainant to be arrogant, insulting, and insolent in dealing coworkers, supervisors, and operators. (RX-17; Tr. 335, 338-340, 465, ·466, 477). · Instead of
helping operators obtain specific information to ·process applications, he instead would locate a
piece of missing or inaccurate information, issue a vague request for more information, or ask
operators to refile their applications without providing any guidance. (Tr. 340): Teague cited
examples of Complainant's inappropriate conduct with former employee Doug Storey, to whom ·
he demanded an apology for submitting incorrect centralizers and observed Complainant's
laughing at operator Paul Hendershott when Hendershott asked for help in resolving well
violations. (RX-12, Tr. 476-477). Teague also testified about Complainant's inability to work
with Respondent.employee Michael Simms on technical issue. (RX-14; Tr. 469-470).

a

Fernandez testified that he continued to receive complaints about Complainant in 2013
from Storey and two regulatory analysts who found Complainant rude and impossible to work
with. (Tr. 106, 130-131, 318). One of these analysts, Carla Martin, e-mailed Fernandez on April
12, 2013, and complained about Complainant sending her an old alternate surface casing request
to fill out when Teague had already sent her anew form. (RX-18, Tr. 314).
On May 21, 2013, Complainant received a P-112 employee counseling from Fernandez
warning Complainant of his misconduct and telling him further misconduct could result in
disciplinary action including termination. (RX-20, Tr. 320).
Despite this admonition,
Complainant continued to require operators to submit the old form. The new form requrred less
information from operators than the old form but nonethel~ss provided sufficient information for

12. 4
21

App. 82

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 43
Page:Date
43 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 43

Date Filed: 01/24/2020

Respondent to approve Rule 13 requests. On May 31, 2013, Complainant received an alternate
surface request from a consultant to an operator. Complainant determined that. the application
lacked a sufficient number of centralizers and directed the consultant to fill out the old form and
indicate the appropriate number of centralizers although the correct number could be determined
from the new application. (RX-25, Tr. 155-156, 347-348, 350-353, 369-372, 383-384, 441-442,
520, 597-598).
The e-mail sent to Teague by Complainant on June 5, 2013 constitutes a dispute with
Teague over the manner in which Complainant preferred to process an alternate surface casing
request. This dispute showed Respondent th.at Complainant was not heeding his instructions
from Teague and Fernandez to cooperate and work with operators. Had Complainant been
compliant, he would have told Ms. Jaroszewicz the correct number of centralizers to be used,
modify or correct the application in the designated place(s), and sign and approve the form as
modified. Instead, he·instructed The consultariftctfill out anotherTorm which was not necessary,
which left the consultant guessing the correct number for compliance. Thus, as Teague and
others with Respondent observed, Complainant was making compliance with the regulations
much more complex than needed and thereby wasting Teague's and Fernandez's time in dealing
with such issues.
Complainants conduct was not protected activity. If anything, it constitutes anti.compliance, insubordination, and anti-protected activity. Teague's decision to impose additional
discipline and Fernandez's decision to terminate Complainant were based solely on.
Complainant's miscon!'.iuct and had nothing to do with any alleged protected activity (which is
not limited to 30 day filing limitation as was his termination came within 30 days of
Complainant>s filing of his complaint).

In discharging Complainant, Respondent treated Complainant in the same manner it
would any other employee who refused to follow directions. (Tr. 763-764). As such, I am
convinced because of the severity of Complainant's misconduct which hampered and impeded
his supervisors in dealing with an overload of problems associated with the proper enforcement
of a booming regulatory business, Respondent has proven by clear and convincing evidence it
would have terminated Complainant in the absence of any protected activity. (Tr. 127-136).

....

12. 

. . . . ·-

22

App. 83

.. .

Case: 19-60561
Case: 19-60561
RESTRICTED
Document:
Document:
00515284595
00515299842
Page: 44
Page:Date
44 Filed:
Date01/24/2020
Filed: 02/05/2020
Case: 19-60561

Document: 00515284595

Page: 44

Date Filed: 01/24/2020

Accordingly, I find Complainant's complaint lacks merit and dismiss it for the failure to
prove any act in violation of the employee protection provisions of the Federal Water Pollution
Control Act or the Safe Drinking Water Act.
·

ORDERED this 19th. day of May, 2016, at Covington, Louisiana.

09i!lally <igoed by Clement Kennington
ON: Ck•Clemenl Kennington,
OU•AdminlotrotJve Law Judge. 0--US
OOL Office of Admlnlo1rative Law
Judges, l=Covinglon. S>'LA. C:US
Location: Covin'](on LA

-

-·-- -

--·-

.

•.

CLEMENT J. KE~WNGTON
AD1\1INISTRATIVE LAW JUDGE
NOTICE OF APPEAL RIGHTS: This Decision and Order will become the final order of the

Secretary of Labor unless a written petition for review is filed with the Administrative Review
Board ("the Board11) within 10 business days of the date of this decision. The Board1s address is:
Administrative Review Board, U.S. Department of Labor, Suite S-5220, 200 Constitution
A venue, NV{, Washington DC 20210, for traditional paper filing. Alternatively, the Board offers
an Electronic File and Service Request (EFSR) system. The EFSR for electronic filing (eFile)
permits the submission of forms and documents to the Board through the Internet instead of
using postal mail and fax. The EFSR portal allows parties to file new appeals electronically,
receive electronic service of Board issuances, file briefs and motions electronically, and check
the status of existing appeals via a web-based interface accessible 24 hours every day. No paper
copies need be filed.
An e-Filer must register as a user, by filing an online registration form. To register, thee-Filer
must have a valid e-mail address. The Board must validate thee-Filer before he or she may file
any e~Filed document. After the Board has accepted an e-Filing, it is handled just as it would be
had it been filed in a more traditional manner. e-Filers will also have access to electronic service
(eService), which is simply a way to receive documents, issued by the Board, through the
Internet instead of mailing paper notices/documents.
Information regarding registration for access to the EFSR system, as well as a step by step user
guide and FAQs can be found at: https://dol-appeals.entellitrak.com. If you have any questions or
comments, please contact: Boards-EFSR-Help@dol.gov
The date of the postmark, facsimile transmittal) ore-filing will be considered to be the date of
filing. If the petition is filed in person, by hand-delivery or other means, the petition is
considered filed upon receipt The petition for review must specifically identify the findings)
conclusions or orders to which exception is taken. Any exception not specifically urged
ordinarily will be deemed to have been waived by the parties.

12. 
23

App. 84

Case: 19-60561

Document: 00515717089

Page: 1

Date Filed: 01/22/2021

United States Court of Appeals
for the Fifth Circuit
___________
No. 19-60561
___________
Frederick B. Wright,
Petitioner,
versus
Administrative Review Board, United States
Department of Labor,
______________________________

Respondent.

Petition for Review of an Order of the
United States Department of Labor
Agency No. 2019-0011
______________________________
ON PETITION FOR REHEARING EN BANC
(Opinion November 13, 2020 , 5 Cir., _____ , _____ F.3d ____ )
Before Owen, Chief Judge, and Southwick and Willett, Circuit
Judges.
Per Curiam:
(✓ ) Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED.

No

member of the panel nor judge in regular active service of the court

App. 85

Case: 19-60561

Document: 00515717089

Page: 2

Date Filed: 01/22/2021

No. 19-60561

having requested that the court be polled on Rehearing En Banc
(Fed. R. App. P. and 5TH Cir. R. 35), the Petition for Rehearing
En Banc is DENIED.
( )

Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. The court
having been polled at the request of one of the members of the court
and a majority of the judges who are in regular active service and not
disqualified not having voted in favor (Fed. R. App. P. and 5TH
Cir. R. 35), the Petition for Rehearing En Banc is DENIED.

2

App. 86

